<html>
<title> - RESPONDING TO DRUG CHALLENGES IN HAWAII</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




                RESPONDING TO DRUG CHALLENGES IN HAWAII

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY, AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 20, 2000

                               __________

                           Serial No. 106-173

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                   U.S. GOVERNMENT PRINTING OFFICE
68-506                     WASHINGTON : 2001


_______________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Printing 
                                 Office
Internet: bookstore.gpo.gov  Phone: (202) 512-1800  Fax: (202) 512-2250
               Mail: Stop SSOP, Washington, DC 20402-0001


                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
HELEN CHENOWETH-HAGE, Idaho              (Independent)
DAVID VITTER, Louisiana


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                    Lisa Smith Arafune, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

   Subcommittee on Criminal Justice, Drug Policy, and Human Resources

                    JOHN L. MICA, Florida, Chairman
BOB BARR, Georgia                    PATSY T. MINK, Hawaii
BENJAMIN A. GILMAN, New York         EDOLPHUS TOWNS, New York
CHRISTOPHER SHAYS, Connecticut       ELIJAH E. CUMMINGS, Maryland
ILEANA ROS-LEHTINEN, Florida         DENNIS J. KUCINICH, Ohio
MARK E. SOUDER, Indiana              ROD R. BLAGOJEVICH, Illinois
STEVEN C. LaTOURETTE, Ohio           JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
DOUG OSE, California                 JANICE D. SCHAKOWSKY, Illinois
DAVID VITTER, Louisiana

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
           Sharon Pinkerton, Staff Director and Chief Counsel
                 Kevin Long, Professional Staff Member
                          Lisa Wandler, Clerk
                    Cherri Branson, Minority Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 20, 2000...................................     1
Statement of:
    Alm, Steven S., U.S. attorney................................     6
    Anderson, Dr. Bruce, director, State of Hawaii Department of 
      Education..................................................    46
    Aycox, Nat, Port Director, U.S. Customs Service..............    80
    Cunningham, Sara, Hawaii State Student Council...............   161
    Dowsett, Major Susan, Narcotics/Vice Division, Honolulu 
      Police Department..........................................    71
    Hamamoto, Patricia, deputy superintendent, State of Hawaii 
      Department of Education....................................    40
    Leonhart, Michele M., Special Agent in Charge, Los Angeles 
      Field Division, Drug Enforcement Administration............    86
    Sakai, Ted, director, State of Hawaii Public Safety Deparment    74
    Taketa, Chris, Hawaii State Student Council..................   166
    Tom, Randall, counterdrug coordinator, Hawaii National Guard.    99
Letters, statements, etc., submitted for the record by:
    Alm, Steven S., U.S. attorney, prepared statement of.........     9
    Anderson, Dr. Bruce, director, State of Hawaii Department of 
      Education, prepared statement of...........................    50
    Aycox, Nat, Port Director, U.S. Customs Service, prepared 
      statement of...............................................    83
    Cunningham, Sara, Hawaii State Student Council, prepared 
      statement of...............................................   164
    Dowsett, Major Susan, Narcotics/Vice Division, Honolulu 
      Police Department, prepared statement of...................    72
    LeMahieu, Paul G., Ph.D., superintendent od education, Hawaii 
      Department of Education, prepared statement of.............    43
    Leonhart, Michele M., Special Agent in Charge, Los Angeles 
      Field Division, Drug Enforcement Administration, prepared 
      statement of...............................................    90
    Mica, Hon. John L., a Representative in Congress from the 
      State of Florida, prepared statement of....................     4
    Mink, Hon. Patsy T., a Representative in Congress from the 
      State of Hawaii:
        Information concerning drug articles.....................   111
        Report from the National Guard...........................   131
    Sakai, Ted, director, State of Hawaii Public Safety 
      Deparment, prepared statement of...........................    77
    Taketa, Chris, Hawaii State Student Council, prepared 
      statement of...............................................   168
    Tom, Randall, counterdrug coordinator, Hawaii National Guard.   102

 
                RESPONDING TO DRUG CHALLENGES IN HAWAII

                              ----------                              


                         MONDAY, MARCH 20, 2000

                  House of Representatives,
Subcommittee on Criminal Justice, Drug Policy, and 
                                   Human Resources,
                            Committee on Government Reform,
                                                      Honolulu, HI.
    The subcommittee met, pursuant to notice, at 9 a.m., at the 
Kupono Courtroom, 4th Floor, Federal Courthouse Building, 300 
Ala Moana Boulevard, Honolulu, HI, Hon. John L. Mica (chairman 
of the subcommittee) presiding.
    Present: Representatives Mica and Mink.
    Staff present: Sharon Pinkerton, staff director and chief 
counsel; Lisa Wandler, clerk; and Cherri Branson, minority 
counsel.
    Mr. Mica. This hearing will come to order.
    Our subcommittee is conducting this oversight field hearing 
as part of our need to understand fully the Nation's drug 
crisis, how it impacts different parts of our Nation, and what 
effective drug-control efforts are under way and should be 
fully supported. Today, we will learn about Federal, State, and 
local efforts to respond to the drug challenges in Hawaii. 
Since Hawaii is uniquely located and a destination which 
attracts millions of people and goods, this State is a logical 
transit point for illegal narcotics and has become one of our 
most vulnerable and challenging regions in America for our law 
enforcement officials.
    We are privileged to have with us today a congressional 
leader who strongly supports efforts to stop the flow of drugs 
into the United States and to protect our communities from the 
ravages they cause. I know that Mrs. Mink, the ranking member 
who invited us to her congressional district here in beautiful 
Honolulu, has been very active helping this region deal with 
issues of drug prevention and treatment and national and 
international drug control. I recognize that she is the 
resident expert on the needs and concerns of citizens 
throughout this area and an important force in fashioning 
Federal, State, and local solutions.
    I wish to thank all the participants for their presence 
here today and for their dedication to this issue of critical 
importance across America.
    We are honored to have testifying before us today a number 
of Federal, regional, and local officials who are engaged in 
responding to the drug crisis and its terrible consequences. 
These officials serve on the front line, apprehending and 
prosecuting drug producers and traffickers, and counseling 
those whose lives have been impacted by drugs and are in need 
of our support and assistance.
    This subcommittee is particularly interested in how 
communities and regions are dealing with critical 
responsibilities of successfully implementing our national, not 
just Federal, drug control strategy. After all, most law 
enforcement and treatment activities are primarily State and 
local responsibilities. However, because of Hawaii's 
geographical uniqueness, your community has special needs and 
concerns, such as trade and transit issues. In Congress, we 
want to ensure that the Federal Government is doing everything 
possible to assist you, both in reducing the supply of drugs in 
communities, as well as the demand for drugs.
    At a recent hearing of this subcommittee, we learned that 
estimates of Americans in need of drug treatment range from 4.4 
to 8.9 million; yet less than 2 million people reportedly 
receive treatment. This ``gap'' must be addressed. Our 
subcommittee will continue its oversight in this area and seek 
to improve our Federal programs that support State and local 
drug treatment and prevention efforts.
    Today, we are focusing on the special challenges and 
threats facing Hawaii. Illegal drug production, use and 
trafficking pose special dangers and challenges to communities 
in Hawaii, to our schools, to our law enforcement officials, 
and to your health care system.
    Since Hawaii is in the middle of the Pacific, this region 
continues to be a primary transit point for illegal drugs 
entering this country and transiting between the continental 
United States and Asia. And since Honolulu is a financial 
center for the Pacific Rim, this area is probably vulnerable to 
money laundering activities. In recent years, this area has 
experienced more demands on its resources than ever before. 
This demand is expected to increase, not diminish, in the 
future.
    To help respond to these unique challenges, Hawaii has been 
designated by the White House Office of National Drug Control 
Policy, ONDCP, as a ``High Intensity Drug Trafficking Area,'' 
commonly referred to as HIDTA. HIDTAs are defined as regions in 
the United States with serious drug trafficking problems that 
have a harmful impact on other areas of the country. The 
missions HIDTAs is: ``to enhance and coordinate America's drug-
control efforts among Federal, State, and local agencies in 
order to eliminate or reduce drug trafficking, including the 
production, manufacture, transportation, distribution, and 
chronic use of illegal drugs and money laundering, and its 
harmful consequences in critical regions of the United 
States.''
    Our subcommittee is responsible for authorizing and 
overseeing ONDCP and the HIDTA program. Since Hawaii's HIDTA 
was only recently created, we will learn more today about the 
goals and targeted initiatives of the HIDTA in combating drugs 
in this area.
    I applaud the continuing dedication and professionalism of 
our witnesses today and their willingness to share their ideas 
and needs with us. I can assure you that this subcommittee and 
your Representative here today will do everything we can to 
assist you in protecting your loved ones and ridding your 
comunities of deadly drugs.
    We all recognize that the drug crisis demands full 
utilization of available resources and close cooperation in a 
comprehensive, regional approach. It is our job in Congress to 
monitor Federal activities and ensure their success. If 
obstacles are identified, then we must move decisively to 
overcome them. Honolulu and Hawaii and the rest of our country 
cannot afford to wait. The drug crisis demands promising 
approaches and decisive action, and the time to act is now.
    I wish to thank all witnesses for appearing before us 
today. I look forward to hearing your testimony on this topic 
of local, State, and national importance to our continued drug 
control efforts.
    Mrs. Mink.
    [The prepared statement of Hon. John L. Mica follows:]

    [GRAPHIC] [TIFF OMITTED] T8506.001
    
    [GRAPHIC] [TIFF OMITTED] T8506.002
    
    [Proceedings were had prior to the following 
transcription.]

           STATEMENT OF STEVEN S. ALM, U.S. ATTORNEY

    Mr. Alm. It is a tremendously high risk of fire and the 
like. More recently it's even been racketed up a notch because 
there have been findings and arrests involved with scratch lab 
productions where methamphetamine itself is being created. That 
creates an even higher risk of danger, of explosion.
    I think our close geographic quarters here help in some 
ways, because citizens already are on the alert and have called 
in to law enforcement when they've seen large supplies of 
acetone cans or when they smell odors that sound off to them. 
And they have called law enforcement and that's how some cases 
have been made.
    But I think especially the neighbor islands are going to be 
in danger; in fact, that's where the recent scratch labs have 
been located, on the neighbor islands where there is even a 
lower population density. Especially I think the Big Island is 
in danger of that kind of a result.
    In the late 1980's we were getting a lot of different 
ethnic groups running--in a sense running the ice business. And 
we were getting a lot of very high quality ice from the Far 
East, from Korea, Taiwan, and China.
    Since the early 1990's we are pretty much getting all of 
the methamphetamine through domestic sources. And that means 
from central and southern California, often Mexican nationals 
working in organizations are picking up large batches of it and 
then the drugs are being brought over to Hawaii.
    Cocaine is probably second to ice in our drug problem. 
About 30 percent of the Federal indictments are for cocaine, 
often crack cocaine. There have been a few organizations that 
have been operating for years that have recently been broken 
up. Richard Brown Taumoepeau, also known as ``Tiki,'' had a 
group of predominantly ethnic Tongans who transported large 
quantities of cocaine, hundreds of kilograms. And as you 
described earlier, Hawaii in that case became a transhipment 
point to sites such as Australia, New Zealand, Guam and other 
parts of the Pacific.
    We have an emerging black tar heroin problem. As opposed to 
China white from Asia, this is Mexican heroin and we often have 
illegal aliens from Mexico involved in the distribution. I 
think this is another area the neighbor islanders are even 
having a bigger problem than folks here on Hawaii with this 
problem. An Organized Crime Drug Enforcement Task Force 
investigative group with the FBI, DEA, INS and all four county 
police departments is becoming increasingly successful in this 
area.
    I would like to make the point that I don't think there is 
a State nationally that has better cooperation between all of 
the law enforcement agencies. I think our small size really 
lends itself to that approach. So for example, in the HIDTA 
program we are able to bring all of the Federal law enforcement 
agencies that are involved in drug investigations, the four 
county police departments, the prosecutors are involved, the 
public safety and their drug program is involved, the National 
Guard and the Western States information network. All 16 of us 
can sit down in a room and work on this together.
    I think the law enforcement situation in Hawaii is 
complicated by the fact that it is--with interdiction being a 
major problem regarding source of supply, it is virtually 
impossible to do those interdiction cases in State court. As a 
result all of those prosecutions are going into Federal court. 
There are advantages to this because of the very strong 
sentencing guidelines. We are often able to get cooperation 
from couriers that are caught at the airport; they face years 
in prison and the only way to really work that time down is to 
cooperate against co-conspirators. We are able to work 
cooperatively with the drug enforcement administration and 
often do searches of supplier's houses in short order working 
with the courts in California. And frankly that would not be 
possible in a State prosecution. At the same time this is a big 
burden on law enforcement. But I think we're never going to--I 
think law enforcement has become sophisticated enough to 
realize we're never going to arrest our way out of the drug 
problem. Law enforcement is a key component of that but we also 
need to emphasize that prevention and treatment efforts to have 
a real strong approach to this--I think the State drug court is 
a program that's working real well, it's helping people get off 
of decades-long problems with addiction in an environment that 
allows them really to come to grips with this and proceed in 
the future. Through the Weed and Seed program that was 
mentioned, the drug court got a grant for $300,000, and now 
dozens of addicts from Kalihi-Palama and by China Town are 
working with drug court and doing it that way.
    I think our State prison system is another area that is in 
desperate need of funds. The Department of Public Safety has 
estimated that more than 80 percent of the inmates have 
substance abuse problems and that there is only funding to 
treat 20 percent of them. I think the Kash Box program that we 
saw yesterday is a real positive program; it's something that 
works. Those inmates were impressive in where they were in 
their lives and what the future looked for them.
    But when we asked them what would really help you folks, 
they said a bigger program for Kash Box because there are other 
folks at Halawa would who would like to get into the program 
but there is no space right now. I know as Hawaii is looking to 
build a new State prison, in part to take care of the 1,200 
prisoners who are housed on the mainland, making that prison 
into an entire drug treatment facility makes a lot of sense. 
Kash Box writ large. I think that would benefit the inmates. It 
would benefit society. I think we need to--both prevention--
even treatment is a post crime strategy and it's late in the 
game and expensive. So I think there are a lot of good programs 
going on. Weed and Seed I think is one of the ones that we 
offer. And in that case you have programs set up to help kids 
do other things so they are not waiting around, they are not 
hanging out having those high-risk after-school hours so they 
can get in trouble and encouraging that.
    I think at the end of the day Hawaii is going to have to 
come to real grips with our ice problem and the destruction 
it's causing our State. And that means everybody. I think 
public awareness is getting better, but we still are not 
employers/employees, students/retirees, labor unions/small 
businesses. We have got to get on the same page so we can send 
the message to all of our residents that drug and alcohol abuse 
is wrong, that it's destroying families and lives. And we need 
to help to work to keep our kids from getting involved in that 
kind of problem to begin with. We've got to make this 
everybody's business.
    I thank you for the chance to address you today, and I'll 
be happy to answer any questions.
    Mr. Mica. Thank you. We will defer questions till we have 
heard the other two witnesses.
    [The prepared statement of Mr. Alm follows:]

    [GRAPHIC] [TIFF OMITTED] T8506.003
    
    [GRAPHIC] [TIFF OMITTED] T8506.004
    
    [GRAPHIC] [TIFF OMITTED] T8506.005
    
    [GRAPHIC] [TIFF OMITTED] T8506.006
    
    [GRAPHIC] [TIFF OMITTED] T8506.007
    
    [GRAPHIC] [TIFF OMITTED] T8506.008
    
    [GRAPHIC] [TIFF OMITTED] T8506.009
    
    [GRAPHIC] [TIFF OMITTED] T8506.010
    
    [GRAPHIC] [TIFF OMITTED] T8506.011
    
    [GRAPHIC] [TIFF OMITTED] T8506.012
    
    [GRAPHIC] [TIFF OMITTED] T8506.013
    
    [GRAPHIC] [TIFF OMITTED] T8506.014
    
    [GRAPHIC] [TIFF OMITTED] T8506.015
    
    [GRAPHIC] [TIFF OMITTED] T8506.016
    
    [GRAPHIC] [TIFF OMITTED] T8506.017
    
    [GRAPHIC] [TIFF OMITTED] T8506.018
    
    [GRAPHIC] [TIFF OMITTED] T8506.019
    
    [GRAPHIC] [TIFF OMITTED] T8506.020
    
    [GRAPHIC] [TIFF OMITTED] T8506.021
    
    [GRAPHIC] [TIFF OMITTED] T8506.022
    
    [GRAPHIC] [TIFF OMITTED] T8506.023
    
    [GRAPHIC] [TIFF OMITTED] T8506.024
    
    [GRAPHIC] [TIFF OMITTED] T8506.025
    
    [GRAPHIC] [TIFF OMITTED] T8506.026
    
    [GRAPHIC] [TIFF OMITTED] T8506.027
    
    [GRAPHIC] [TIFF OMITTED] T8506.028
    
    [GRAPHIC] [TIFF OMITTED] T8506.029
    
    [GRAPHIC] [TIFF OMITTED] T8506.030
    
    [GRAPHIC] [TIFF OMITTED] T8506.031
    
    [GRAPHIC] [TIFF OMITTED] T8506.032
    
    [GRAPHIC] [TIFF OMITTED] T8506.033
    
    Mr. Mica. At this time I will recognize Ms. Patrick 
Hamamoto, deputy superintendent, the State of Hawaii Department 
of Education.
    Welcome, and you are recognized.

STATEMENT OF PATRICIA HAMAMOTO, DEPUTY SUPERINTENDENT, STATE OF 
                 HAWAII DEPARTMENT OF EDUCATION

    Ms. Hamamoto. Good morning, Representative Mica, 
Representative Mink, members and staff of the House Committee 
on Government Reform, Subcommittee on Criminal Justice, Drug 
Policy, and Human Resources, colleagues and guests.
    Dr. LeMahieu was unable to be with you this morning and 
sends his apologies and regrets. However, we welcome this 
opportunity to present testimony before your subcommittee on 
matters relating to the drug problem in Hawaii.
    1997 Youth Risk Behavior Survey [YRBS] results for Hawaii 
high school students indicate modest gains in the number of 
students: Who have consumed alcohol in the last 30 days; had 
five or more drinks on one or more occasion in the past 30 
days; ever used inhalents; ever tried to quit smoking; used 
smokeless tobacco in the past 30 days; used smokeless tobacco 
on school property in the past 30 days.
    Although these statistics indicate that we are experiencing 
some success, there is need to increase our prevention efforts.
    Recent data from the 1999 Hawaii Kids Count Data Book 
indicate that 72 percent of Hawaii high school students have 
tried alcohol, 67 percent have tried cigarettes, and 46 percent 
have tried marijuana at some point.
    When experimentation becomes regular usage, there are 
serious impacts to health, educational achievement, personal 
relationships and increased potential for violence. Alcohol is 
a major factor in half of all homicides, suicides and motor 
vehicle accidents, these being the leading causes of death 
among teenagers.
    Nicotine addiction is the most common form of drug 
addiction and brings with it a tremendous impact on health care 
and causes more serious health problems than all other types of 
addictions combined. Over 75 percent of all adult smokers 
started as teens.
    Increased drug use is mirrored by increasing violence, 
abuse and neglect. Arrest rates for violent crimes committed by 
juveniles have increased from 38 percent from 1990-1997. The 
increases in methamphetamine use in both adult and adolescent 
populations have resulted in increased violence in the home and 
workplace.
    Marijuana remains the drug of choice other than alcohol and 
tobacco. We continue to see an increase in the number of 
students that try marijuana before the age of 13. Departmental 
statistics indicate that there was a total of 665 incident 
reports filed in school year 1998-99 for possession of 
marijuana, 24 for possession of drugs other than marijuana, 156 
for possession of alcohol or intoxicating compounds, and 209 
for possession of drug paraphernalia.
    Although these statistics show a decline in drug-related 
offenses since 1995, there continues to be a shortage of 
treatment programs for adolescents both on and off campus. The 
1998 Hawaii student alcohol and drug use survey indicates that 
3 percent of 6th graders, 10 percent of 8th graders, 22 percent 
of 10th graders and 29 percent of 12th graders are in need of 
treatment for some type of substance abuse. This correlates to 
roughly 16,701 public and private school students in Hawaii or 
approximately 16 percent of all students in grades 6 through 
12. We need to provide accessible treatment programs and 
services to these adolescents.
    Any amount of drug use in the school or community by adults 
or adolescents is unacceptable. The decline in parental 
involvement, the lack of meaningful and purposeful after-
school, especially for students in the middle schools, and the 
overall decline of student self-worth are contributors to 
student alcohol and other drug use. Given the etiology of this 
issue, it should come as no surprise that drug problems beset 
Native Hawaiians and other Pacific Islanders disproportionately 
more so. Recognizing this, the Department's prevention efforts 
focus on helping students achieve to high standards and 
academics and character. Only through achievement can students 
take pride in themselves. We recognize that this can only be 
achieved in an atmosphere that is conducive to learning and 
free of drugs and violence. To this end the Department is 
concentrating its prevention efforts and funds in primary 
prevention strategies and in developing and implementing 
programs that build resiliency in students.
    At the present time, all public schools in Hawaii and 
approximately 75 private schools participate in the Safe and 
Drug-Free Schools and Communities program. However, we 
recognize that the Department of Education cannot fight this 
battle alone. We have formed partnerships with other Federal, 
State and local and private agencies to spread the message and 
strive to reach the goals of the Safe and Drug-Free Schools and 
Communities program. These agencies include the: Office of the 
U.S. Attorney; Office of the Attorney General; Department of 
Health; Coalition for a Drug-Free Hawaii; Hawaii Medical 
Service Association; Kamehameha Schools-Bishop Estate's Native 
Hawaiian; Safe and Drug-Free Schools and Communities Program; 
and the city and county governments of Kauai, Honolulu, Maui, 
and Hawaii.
    It is through partnerships with these agencies that we have 
seen a coordinated effort to achieve common goals. We have 
reduced to duplicity of effort and have filled the gaps in 
services to the extent possible.
    There needs to be a balance between prevention and 
treatment. We must provide treatment programs for students that 
despite our best prevention efforts manage somehow to become 
involved in illicit drug use as they get older.
    As I am sure you are aware, measuring the impact of 
prevention is difficult at best. Research has demonstrated that 
programs that are implemented over time are more effective than 
those that are ``one shot'' in nature. We are in it for the 
long haul and will not rest until our schools and communities 
are indeed safe and drug free. Our succusses have begun to 
indicate the validity of our efforts. However, the Federal 
support that we have received is what
has made these efforts possible. They must be maintained and 
redoubled if we are going to realize satisfactory success in 
this war.
    Thank you for this opportunity to share with you.
    Mr. Mica. Thank you for your testimony.
    [The prepared statement of Mr. LeMahieu follows:]

    [GRAPHIC] [TIFF OMITTED] T8506.034
    
    [GRAPHIC] [TIFF OMITTED] T8506.035
    
    [GRAPHIC] [TIFF OMITTED] T8506.036
    
    Mr. Mica. I will now recognize Dr. Bruce Anderson, director 
of the State of Hawaii Department of Health.
    We recognize you.

  STATEMENT OF DR. BRUCE ANDERSON, DIRECTOR, STATE OF HAWAII 
                    DEPARTMENT OF EDUCATION

    Mr. Anderson. Chairman Mica, Congresswoman Mink----
    Mr. Mica. You might pull that mic up as close as you can. 
Thank you.
    Mr. Anderson. Good morning again. Thank you for the 
opportunity to testify. Before I begin, I'd like to recognize 
Elaine Wilson, who is chief of our drug and alcohol abuse 
division, and who will be able to answer any questions you 
might have.
    I have a fairly lengthy written testimony that I would like 
submitted into the record.
    Mr. Mica. Without objection the entire statement will be 
made as part of the record.
    Mr. Anderson. And with that in mind I will keep my comments 
shorter if that's all right.
    Mr. Mica. Go ahead.
    Mr. Anderson. I wanted to reiterate some of the points that 
have already been made; that is, that substance abuse is a 
serious problem, reaching epidemic proportions here in Hawaii. 
Our department's primary goal and focus is to assure that the 
people suffering from substance abuse have the appropriate 
treatment services they need.
    We have rather limited resources to accomplish this and the 
Federal funds provided by the Substances Abuse Prevention and 
Treatment Block Grant have greatly assisted our efforts. We 
certainly appreciate the support provided by the Substance 
Abuse and Mental Health Service Administration.
    Let me speak a little bit about the problem generally.
    As of course all of you know it's a serious problem that 
affects everyone. Every man, woman and child in America spends 
over a $1,000 per year aiding for substance abuse problems. 
Looking at how this translates to Hawaii, the cost of alcohol 
and drug abuse is estimated to be over $730 million with costs 
due to alcohol approximately $440 million and other drugs over 
$290 million. Those costs include not only the direct medical 
costs but of course costs associated with illnesses and death, 
motor vehicle crashes, crime and incarceration and other 
related costs.
    Substance abuse in Hawaii touches the lives of many 
families, practically every family in Hawaii. Each delivery of 
a new child that's complicated by chemical addiction results in 
an expenditure between 48,000 and $150,000 in maternity care, 
physicians' fees and hospital charges. Addictive substances 
have the potential for destroying a person who is addicted, 
their family, and other relationships. Fetal alcohol syndrome, 
for example, is a condition that is 100 percent preventable. 
Infants would not be born with irreversible physical and mental 
damages if this issue were addressed.
    Approximately 65 percent of emergency room visits are drug 
and alcohol related. We have also seen the link between 
domestic violence and substance abuse. We know that 25 to 50 
percent of men who commit acts of domestic violence also have 
substance abuse problems.
    As Congresswoman Mink indicated, ice is probably one of the 
greatest challenges we face today. It is a major crime 
prevention problem, as Mr. Alm has pointed out, and it is a 
health problem. Ice causes brain damage and can make the 
abusers psychotic, paranoid and schizophrenic.
    In December, the Department of Health in conjunction with 
the Center for Substance Abuse Treatment, sponsored the first 
regional methamphetamine conference to increase knowledge, 
strategies and treatment for those addicted to ice. Over 400 
people attended this conference. One of the presenters, a Dr. 
Rawson, remarked that, ``If Hawaii was in Arlington, Virginia, 
this would be a national emergency story in the extent to which 
it has affected the community here. It's certainly a very 
significant public health problem.'' The conference was 
followed by a town meeting where overflowing crowds, mostly 
people in recovery or currently in treatment, filled the State 
capitol auditorium and made clear that family and community 
problems are attributed to ice. There was one woman, probably 
in recovery, who told her story at town hall by saying,

    Ice seduced both me and my children. I was a construction 
worker for 15 years and did drugs for 12. I lost my 
granddaughter who was stillborn because my daughter was on ice. 
I hate this drug even though it was my first love. I want to be 
a strength to the community, not a menace. I went to a short-
term program but it didn't work. I went loaded every day to 
work because I was an alcoholic and addict. But long-term 
treatment works.

    Ice in Hawaii has become a multigenerational problem, since 
first introduced in 1985 and contributed to the increased 
demand and need for treatment.
    Mr. Ted Sakai is one of the panelists I know you have 
before you, and I won't go into a collaborative that we're 
working on with them to look at diversion programs for the 
criminal justice population. But I would like to focus on a 
couple of other areas of high risk.
    And Ms. Hamamoto has also mentioned this, but let me cite a 
few statistics that I think should be repeated. The Department 
of Health in a student alcohol and drug use survey, surveyed 
over 25,000 students in various grades and found that more than 
14 percent of Hawaii's sixth graders have used at least one 
illegal drug in their lives. By 12th grade, 50 percent have 
used at least one illegal drug. Alcohol is still the largest 
substance abuse problem for our youth, but what is of great 
concern is that almost twice as many of Hawaii's 8th and 10th 
graders report drinking alcohol on a daily basis as compared to 
youth on the mainland.
    Again, Ms. Hamamoto covered many of these statistics, but 
26 percent of Hawaii's 8th graders, 43 percent of the 10th 
graders and 50 percent of the 12th graders have used illegal 
drugs at least once.
    Inhalents are the second-most illicit drug after alcohol. 
And let me finally add that one of the most disturbing 
statistics in the 1998 survey is that 8 percent of Hawaii's 
12th graders have used crystal methamphetamine compared to 5 
percent of the 12th graders on the mainland. Clearly we have 
more of a problem here in Hawaii than on the mainland.
    Let me talk a bit about treatment needs. In Hawaii there 
has been increased demand for both adult and adolescent drug 
treatment services resulting in a daily wait list for the 
residential treatment of between 150 and 300 clients. Access to 
drug treatment does not meet the current need for services.
    I do have some charts here today; incidentally, the tables 
of these charts are in my testimony so there is no need to 
reproduce the charts, but let me illustrate and highlight a 
couple of significant points.
    As we look at treatment needs, the cahrts indicate that 
among young adults, there are over 89,000 adults in Hawaii who 
need treatment. That's 10 percent of the adult population.
    I've a got a better pointer here.
    I wanted to also highlight that the Department has 
resources to treat only 2,500 of those 89,000 people. That's 
less than 3 percent of the population in need. When we look at 
the youth, the second chart down here, we can see that the 
total youth needing treatment amounts to 16,718. Again that's 
consistent with Ms. Hamamoto's numbers. That's 16 percent of 
our youth.
    While Hawaii's youth abuse alcohol and other drugs in 
similar patterns to the mainland, the daily use, defined as 
using drugs 20 out of the last 30 days in Hawaii, is twice the 
Nation's rate for marijuana and alcohol. The Department of 
Health provides treatment for about 1,500 of these 1,600 youth, 
which is less than 9 percent of those who need treatment.
    In our testimony we covered what we do in terms of 
treatment services, and I won't go through those, but I do want 
to emphasize the effectiveness of treatment. It not only helps 
to reduce rates of abuse, but it also reduces healthcare costs, 
crime, HIV and AIDS, and complicated pregnancy costs and 
Welfare costs. Studies indicate for every $1 invested in 
treatment, over $7 are saved by reductions in health costs.
    I have some other charts here that I'll just touch on 
briefly.
    During the State fiscal year 1999 we have listed here some 
of the outcomes from treatment services. As you can see, for 
example, looking down this list almost 83 of the those who were 
treated had no arrests since they were discharged. And I won't 
read through all the numbers here, but the effectiveness of 
treatment is very clear for the adults.
    We also have some good statistics that relate to 
adolescents.
    As I mentioned before, 83 percent of those who were treated 
had no arrests.
    Similarly we have very good statistics for the youth who 
have been treated. While drug treatments have been proven to 
work, Hawaii's public treatment system can serve only 
approximately 12 percent of adults in severe need of treatment. 
An even greater problem exists with the thousands of youth at 
vulnerable age needing treatment.
    And finally let me touch on prevention.
    The age at which children and adolescents initiate their 
use of alcohol, tobacco and other drugs shapes the pattern of 
abstention or abuse during youth and adulthood. Research has 
shown that youth exposed to various risks for substance abuse 
are responsive to prevention efforts.
    The Department's prevention programs focus on reducing the 
incidence and prevalence of substance abuse, improving 
individual and family functioning through specific skill 
building strategies, and heightening personal and community 
awareness of risk and protective factors for substance abuse.
    A typical youth prevention program such as The Boys And 
Girls Clubs' ``Smart Moves'' or our Native Hawaiian ``E Ola 
Pono'' curriculum, stresses the teaching of refusal skills, 
dealing with peer pressure, increasing awareness of the harm of 
alcohol and drugs, providing HIV and AIDS education, and 
developing decisionmaking skills, healthy choices, and life 
enhancing skills. There are sufficient resources for only 10 
program sites throughout the State, enough to provide an 
effective program to some of our youth yet very few.
    I have mentioned in my testimony some other prevention 
initiatives, but in rality, there are only one or two of these 
programs across the State. We have also started a mentoring 
initiative and working with our first lady Vicky Cayetano on 
the problem of underage drinking.
    There is a great deal of prevention work to do. Effective 
models are being implemented in Hawaii. However, to make a 
difference to all of our children and our families we need more 
resources for this.
    In closing, let me say that Hawaii, like most States, has 
many individuals and communities in need of substance abuse 
prevention treatment. The lack of adequate resources available 
results in a population of underserved or unserved individuals 
and tragedies for many of our families.
    We do appreciate this committee's interest and commitment 
to address the new challenges we face, and I thank you for the 
opportunity to present some of this information to you.
    [The prepared statement of Mr. Anderson follows:]

    [GRAPHIC] [TIFF OMITTED] T8506.037
    
    [GRAPHIC] [TIFF OMITTED] T8506.038
    
    [GRAPHIC] [TIFF OMITTED] T8506.039
    
    [GRAPHIC] [TIFF OMITTED] T8506.040
    
    [GRAPHIC] [TIFF OMITTED] T8506.041
    
    [GRAPHIC] [TIFF OMITTED] T8506.042
    
    [GRAPHIC] [TIFF OMITTED] T8506.043
    
    [GRAPHIC] [TIFF OMITTED] T8506.044
    
    [GRAPHIC] [TIFF OMITTED] T8506.045
    
    [GRAPHIC] [TIFF OMITTED] T8506.046
    
    [GRAPHIC] [TIFF OMITTED] T8506.047
    
    [GRAPHIC] [TIFF OMITTED] T8506.048
    
    Mr. Mica. I'd like to thank all of our witnesses for their 
testimony, and I will start with several questions.
    First of all, for the U.S. Attorney, tell me again what 
percentage of crime you see in Hawaii related to illegal 
narcotics?
    Mr. Alm. Well, like I said, I think given our extremely 
high property crime rate I think the vast majority of that is 
associated with drug use. In Federal court we prosecute all of 
the bank robberies and virtually all of the bank robbers are 
doing it to buy drugs.
    Mr. Mica. It appears that there is a meth epidemic here. 
Different parts of the country have different problems. We were 
in California, northern California all the way down to San 
Diego, has similar meth problem. I come from an area that is 
ravaged by heroin.
    Your HIDTA, your High Intensity Drug Traffic Area that 
you've designated, have you chosen one specific narcotic, 
illegal narcotic to go after? Some of them do concentrate in 
their overall planning to target a particularly difficult 
problem.
    Mr. Alm. Well, initially the biggest thrust would be 
setting up the intelligence center so that all narcotics 
investigations will be aided by the intelligence base. And the 
big initiative initially will be a more complete comprehensive 
interdiction program at all four airports that we now have that 
have direct flight capability.
    So we have direct flights coming in to not only Honolulu 
International Airport, but Kauai, Maui and the Big Island. And 
getting the interdiction efforts up on the neighbor islands and 
increasing the efforts here on Oahu will cut access for all the 
drugs. We have initiatives that we do not think that will be 
funded. The first year there won't be money because setting up 
the intelligence center and setting up the interdiction program 
that will probably take virtually all the money. But we have a 
methamphetamine task force and a black tar heroin task force 
that we will hopefully be able to fund along those lines.
    Mr. Mica. Have you submitted your request or prepared your 
request for funding for the 2000-2001 year?
    Mr. Alm. Yes. And we're working with the----
    Mr. Mica. And how much is that?
    Mr. Alm. The five new HIDTAs they were hoping to get at 
least $2\1/2\ million more per year. We didn't even make that. 
We got $1.4 million for the current year and we are told at 
least it's flat funding. We hope to get more.
    But as you know the expense of procuring space and the 
computer capability, a lot of that is going to get taken up. We 
have had very good response from all of the law enforcement 
entities about assigning people to the HIDTA project. We are 
trying to run it as lean as possible so only the very basic 
folks end up getting hired that are recommended by ONDCP, and 
otherwise it's going to be staffed by many of the people you 
see here with Drug Enforcement Administration, with the 
Honolulu Police Department and with our office.
    Mr. Mica. Well, it appears in addition to meth which is 
increased at least from seizures--and actually it looks like 
your seizures are down from 1998 to 1999, but it appears you 
have a substantial problem with meth, according to at least 
what they are catching and then almost a doubling since 1997, 
over a doubling of heroin and you say that's black tar heroin 
coming out of Mexico?
    Mr. Alm. Yes.
    Mr. Mica. And the meth is also related to Mexican gangs, 
you said, who were involved and Mexican production.
    Mr. Alm. Yes. Often the precursor chemicals are coming over 
the border. Most of the labs are in central and southern 
California.
    Mr. Mica. And that is coming in from the mainland through 
the airports. So that's your major area of concentration of 
enforcement.
    Mr. Alm. Yes.
    Mr. Mica. How would you describe--and certainly the U.S. 
Customs is Federal responsibility. Do we have inadequate 
coverage as far as Customs at these points of entry.
    Mr. Alm. No. I think Customs has been doing a good job. The 
number of seizures is certainly down over what it used to be. I 
think that is more of a reflection of the traffickers. Even if 
the end product is going to be here in Hawaii they are sending 
it to the mainland and then back domestically so they can avoid 
the Customs searches. But Customs has been a real player in 
HIDTA and looks forward to bringing, I think, especially some 
of the technology they have developed and some of the 
cooperation they have developed, bringing that table.
    Mr. Mica. What's the size of the DEA operation here?
    Mr. Alm. Michele Leonhart is the special agent in charge 
and she's here specifically----
    Mr. Mica. I think she's on the next panel. But do you feel 
that their staffing is adequate to keep up with the amount of 
traffic?
    Mr. Alm. I think their staffing could be improved. And I 
think one thing that has been a real difficulty for all of the 
Federal law enforcement agencies is that with the high cost of 
living in Hawaii it's extremely difficult for them to be able 
to attract mid career agents who are the most effective, 
they've been seasoned, they've got experience, but to have 
folks come out here as agents with families and kids, the cost 
of living just scares them away. We have a lot of first-office 
agents at all of the Federal law enforcement agencies. They 
have got a tremendous amount of enthusiasm but they are just 
learning the trade.
    And I think, again, you folks have joked about it yourself, 
that coming to Hawaii, we hear the same thing, that this is 
Paradise, you can't have real crime problems. And the idea of 
giving a supplement or bonus for a Federal to be assigned to 
Hawaii--I realize they have been trying to do that for Puerto 
Rico which has its own tremendous crime problems, but it sounds 
like it's a hard sell.
    We have tried to communicate that with all of the Federal 
law enforcement agencies, that their agents need more money to 
attract the best agents. They are doing a good job now and they 
are working extremely close with other Federal agencies and the 
Honolulu Police Department, but I think that that's an area 
that can be improved.
    Mr. Mica. You also advocated to the panel that drug 
treatment for prisoners is an important program. We visited 
yesterday one program. Is that the only program that you have 
or are there other programs?
    Mr. Alm. I know Ted Sakai is going to be here. I think that 
is the premiere program for the State prison system. They are 
also doing an educational program at Halawa, the main State 
medium security facility. All of the people that get arrested 
in Federal court and are sent to the mainland for Federal 
prison have access to drug treatment there. And we're trying to 
work as in the Weed and Seed program. We are arresting and 
sending the dealers to Federal prison on the mainland.
    Mr. Mica. The prison that's being built now, I think you 
advocated having a treatment program.
    Is that a State or Federal facility.
    Mr. Alm. It's a State facility. It's not being built now. 
It's supposed to be built now. They are still in the throes of 
finding a community to accept it. They were looking at the 
mainland, even building a prison on the mainland. I think the 
current focus through the legislature is location on the Big 
Island.
    Mr. Mica. Ms. Hamamoto, the Federal Government in the last 
several years has authorized and approved funding for a million 
dollar media campaign, education campaign which spent about a 
third of a billion, I think, in 1 year. That is also 
supplemented by at least an equal amount through donated time 
or services for effort.
    Are you aware of that program and what's your opinion of 
what we have been doing so far?
    Ms. Hamamoto. Let me call our staff person Wendell----
    Mr. Mica. Well, no, I'm interested in what you have to say.
    Have you seen anything that we have done?
    Ms. Hamamoto. Yes, I have. Now that he needs to refresh my 
memory.
    Mr. Mica. Some of this is television ads----
    Ms. Hamamoto. Yes, I have seen them. Do I think----
    Mr. Mica. We want your candid assessment of what we are 
doing. It's the biggest program we have probably done in the 
history of Congress. Our job is to oversee that program. Is it 
successful? What do you think of it? Does it have any impact? 
Or maybe we should use the money in some other way.
    Ms. Hamamoto. I think it has a tremendous impact on the 
young people. It makes them think; it challenges them to see 
what is out there.
    As an educator, as well as a former high school principal, 
I know that since these ad campaigns have come out, we've had 
more students that have come to us requesting help, for 
themselves and their friends. And it's not something that the 
kids try to hide. It's something that they bring out and they 
want help for.
    So I believe that what the drug campaigns have done is 
given students an avenue, from by which they can express their 
feelings, and seek help, which is better than not talking about 
it and keeping it bottled up.
    Mr. Mica. If you were going to direct additional Federal 
resources to complement what you're doing how would you 
proceed?
    Ms. Hamamoto. I would like to see resources put into more 
drug treatment programs for youngsters. Presently the 
Department of Education is primarily into prevention, and we 
refer out for the treatment. We have more referrals for 
treatment for kids who need it than there are agencies that can 
support them.
    One of the things that I would like to see is for every 
student on campus involved in any kind of drug violation, 
regardless of whether it's paraphernalia or use or just 
possession, included in those violations that these students 
have some type of drug counseling, drug treatment, something 
that we could through policy insist that these students get 
help on. I would like to see Federal dollars go--if we could 
help more of these type of treatments, not only on campus but 
with agencies that would support us as partners.
    Mr. Mica. Dr. Anderson, one of the questions, debates in 
Congress is block grants versus continuing the program that we 
have now of a combination of block grants and then 
discretionary grants from the Federal Government.
    Some of the preliminary information we did in looking at 
the State of Florida--I'm not certain about Hawaii, I'd like to 
get the information if we could--is we found in review, first 
of all, that 11 percent of the SAMHA, Substance Abuse and 
Mental Health Administrative costs are used to disburse 89 
percent of the funds; 89 percent of the funds are given in 
block grant program. We end up with 89 percent of the balance 
of the resources being spent administrative costs to disburse 
the remaining 11 percent. The discretionary grant overhead is 
very expensive.
    In my review of Florida we found that many that are 
receiving the discretionary grants are also receiving State 
grants. We have had Federal money from grants going to these 
programs and we are spending 100--or 89 percent of $129 million 
to administrative program and gift money in discretionary 
grants to folks that are already going through the process and 
being eligible for block grant money through the States.
    Why don't we just block grant all the funds?
    Mr. Anderson. Without knowing all the----
    Mr. Mica. Let me change the question. It sounds like Hawaii 
is sort of at the short end at getting some of these 
discretionary funds.
    How much do you get in discretionary funds?
    Mr. Anderson. I would have to ask our program staff to 
describe that. Let me say we are also at a disadvantage when it 
comes to receiving discretionary funds given the lack of 
resources in the State to even apply for those. We don't have 
anyone--we don't have grant writers in our State. I think many 
States are faced with the same thing. What has to happen is 
someone like Elaine Wilson behind me or someone else must spend 
a weekend, or two, or three, or more writing for grants, which 
is very difficult.
    Personally, without knowing the circumstances here, I'm 
often troubled with block grants just because I think 
categorical grants to be much more targeted and often much 
easier to administer. If there is a clear problem, those work 
best. There is always the temptation to say with a block grant: 
Well, we have given you money that you can use for that purpose 
if you want to.
    Having said that, would you like more specific----
    Mr. Mica. If you could I would like you to submit for the 
record a list of all--any discretionary grants you get, the 
total amount of money you get in discretionary grants, and then 
the amount you get in block grant money.
    We hear the common theme. We have held hearings on SAMHA 
discretionary and also block grant program and we have heard 
the call for more flexibility with the block grants. And also 
we have imposed reporting requirements and accountability 
requirements which now sometimes duplicate what States are 
doing and have also--of course, we had testimony at one of our 
hearings that one of the providers said that they spend 4 days 
a week providing treatment and 1 day filling out forms and 
reporting. And we're not sure even where those forms go or who 
is looking at them, if they make any difference.
    Are you finding the same type of problem from some of the 
reporting requirements?
    Mr. Anderson. Certainly. I think it's perhaps the need that 
tends to sometimes overwhelm the program because it lacks 
administrative support.
    Again, I would have to defer to our program staff, with 
regard to the specifics of any time allotted to meeting those 
reporting requirements. But generally I would say that we'd 
like to have a minimal number of reporting requirements 
particularly with discretionary grants and block grants as well 
and be able to focus more on program delivery.
    Mr. Mica. One of the problems--I will just close with 
this--is that we found as we increase Federal funding to States 
we find legislatures decreasing the amount of funding for 
treatment and in particular prevention programs.
    I'm not sure if that's the case in your State. We can go 
back and look at it historically. But again we find giving more 
Federal money ends up having a decrease in what the State 
(inaudible) is what kind of increases have you had in your 
funding over the past several years from the State legislature 
for these programs?
    Mr. Anderson. I think over the last several years we have 
had no increase in State funding whatsoever.
    Let me add that our treatment is helping only a very small 
percentage of those persons in need. For adults 3 percent; for 
youth about 9 percent I think is the numbers that I recall.
    This year we're talking about using some of the tobacco 
settlement moneys for drug treatment. In fact there is a bill 
going through the legislature that would allocate up to 25 
percent of the moneys the State's receiving from tobacco, for 
drug and alcohol abuse treatment.
    Clearly it's a significant problem here given the scarcity 
of State resources and our economic situation. A commitment of 
this amount of money to drug abuse treatment is indicative that 
this is perceived as a problem. Our State has not had the 
luxury of having a lot of uncommitted funds over the last few 
years. We have been struggling to make balance. In fact this 
year we looked at a significant reduction in funding, despite 
the fact that the rest of the Nation is doing very well.
    So we haven't had the discretionary State funding to put 
toward substance abuse or any other program for that matter. 
Any Federal support would be welcomed, not necessarily 
supplanting general funds, State general funds or other funds. 
I think we would be able to use that money to supplement the 
limited State resources we have. So I would not worry about 
that problem, especially if the money were targeted toward 
substance abuse.
    Mr. Mica. Thank you. Yield to the ranking member, Mrs. 
Mink.
    Mrs. Mink. Thank you very much, Mr. Chairman. I would like 
to ask unanimous consent that I be permitted to submit a number 
of questions to the three witnesses----
    Mr. Mica. Without objection.
    Mrs. Mink [continuing]. And their responses be inserted in 
the record.
    Mr. Mica. Without objection.
    Mrs. Mink. The testimony is very interesting and yields to 
a large number of questions. And I know we don't have time to 
go into many of these areas since we do have two other panels.
    I think that what needs to be said at this hearing, and 
hopefully we have other hearings in the future, at least from 
my vantage point the reason I'm here is that I wanted to 
emphasize to my colleagues in the Congress and to the Nation as 
a whole as they look at the drug problems that we here in 
Hawaii have a very very serious problem.
    Having said that it's also, I think, disturbing to realize 
that our State government and our local governments have not 
really put this at the top of their list in terms of State and 
local priorities in dealing with these problems.
    Law enforcement is one thing; that's going to continue. And 
we may have disagreements as to law enforcement efforts. But 
from my perspective the area of treatment and prevention is the 
key. We're going to have a HIDTA to develop intelligence so we 
can interdict these drugs as they are coming in to the State. 
But once the drugs are here we have to do something about the 
demand and to try to limit it, try to educate, particularly our 
young people. And if they should fall victim to these drugs we 
need to have in place a wide variety of treatment programs that 
could be made available.
    And it's disturbing to hear you, Dr. Anderson, say that we 
only have about 10 percent of our young people in treatment 
programs, if I heard you correct, and that there is almost none 
in the State school system in terms of treatment. You find a 
youngster who is abusing drugs and there is very little you can 
do within the school system. You have to refer that individual 
to either law enforcement or to the Department of Health.
    State Senator Chumbley sent me responses to questions that 
he propounded to all State agencies who have anything to do 
with drug treatment, drug prevention, asking them what State 
dollars were use ub their program and what the Federal 
contributions were. And over all I was quite shocked to see the 
very, very limited amount of State assets that were going into 
some of these very, very important areas.
    And so my one question that I wanted to ask the three 
witnesses is, is this drug problem one which only the Federal 
Government needs to pay attention to and is it the primary 
source for concern for funding, for direction, for initiatives, 
or how do you split this responsibility? Is it a State 
responsibility? And if it is, what can we do from the Federal 
end to encourage States to do more? Do we need matching 
programs? Do we need to direct the energies of the States in 
certain kinds of preventive treatment programs? Do we have to 
illustrate what works and try to encourage States to go down 
that path?
    What can we do as Federal legislators to bring to bear 
obviously limited resources at the State level but to create a 
much greater awareness of the State and local responsibility to 
help the Nation do something about this very, very terrible 
problem?
    Mr. Alm. Well, I think Federal funding that is targeted as 
was mentioned that can only be used for treatment or can only 
be used for prevention and perhaps requiring a match, by 
targeting those funds is a way to go.
    And I think for the kids it's supporting programs like the 
A-Plus program and other programs for kids so that if they're 
active and they're busy and they're engaged otherwise they are 
less likely to get involved in this kind of activity to begin 
with. So encouraging those kinds of efforts. And as we 
described, the heros like Bernard Lewis at Kaiulani Elementary 
School, people on their own doing things if they get some 
encouragement to set up programs so kids can be kept active, 
kept busy in doing other things. And I think there is a long 
way, if those programs were expanded throughout the State, we 
would go a long way toward giving kids other things to do so 
they wouldn't go down this path to begin with.
    Mrs. Mink. So if I understand your answer you're saying 
when we look at the prevention area you're listing A-Plus as a 
part of the program for prevention, so you would include that 
as part of the total expenditure for the State?
    Mr. Alm. Yes.
    Mrs. Mink. Thank you.
    Ms. Hamamoto. I thought about what you said and I'd like to 
say all of the above that you mentioned: Matching funds, 
efforts to expand, to encourage what are the best practices. 
For the Department of Education if it's a national priority and 
we keep it in front of the system as a whole that drug 
prevention treatment and the problems that we have with the 
misuse and abuse of drugs is a priority that needs to be 
addressed, then it filters into all the systems that we have as 
far as education. I think the Federal Government keeping it at 
a priority level is important. I also believe that the funding, 
when it's leveraged or matched with our funds also allows us to 
expand programs.
    And like Steve Alm said, what happens is, if we take our 
programs that we presently have and we look at the flexibility 
and how we can somehow tie in the use of those funds to ensure 
that as we do academic (inaudible) we also include the idea of 
drug prevention and drug awareness, we would have much better 
results. So I would like to see it in all areas.
    Mr. Anderson. Let me just add I have no difference of 
opinion with either of the other witnesses here.
    I think, Congresswoman Mink, the point you made to focus on 
prevention activities is so important. The treatment needs are 
so overwhelming here that unless you have targeted grant 
moneys, they are going to be moneys sucked up in treatment 
services. I think we have something like $80 million of 
expected treatment needs here that are not being met. And given 
the benefit of prevention, for every $1 we are spending on 
prevention we are potentially saving $7 or more in treatment. I 
think that, to get the biggest bang for the bucks, with money 
targeted toward prevention activities, we ultimately are going 
to be saving ourselves much more expense down the line. And I 
would suggest that at least some of the Federal moneys if 
targeted toward that purpose, would help.
    Mrs. Mink. Thank you, Mr. Chairman.
    Mr. Mica. Thank you. The problem we have found at the 
Federal level in supporting public treatment programs is that 
there is a very high rate of recidivism. Even in the program 
that we visited yesterday, I think they were only averaging 30 
or 40 percent success rate.
    What can we do to support effective programs and what do 
you consider most effective programs, Dr. Anderson?
    Mr. Anderson. Actually I'm now working with the Department 
of Public Safety on focusing, not only on the population of 
individuals who are incarcerated but also those people on 
probation and parole. We are trying to see what we can do about 
getting a comprehensive treatment program in place for the 
entire justice population to help stop that revolving door.
    We're now actually looking at jacking up some alcohol and 
cigarette taxes to help pay for some of those programs. 
Politically I'm not sure how viable it is here, but I would say 
a comprehensive program similar to the program Arizona has in 
place, which I think focuses primarily on persons on parole, 
but a program to focus on a continuum care and support for 
those individuals is critical.
    One thing that I have noted with the recidivism problem is 
that short-term treatment doesn't work. You can't just put 
someone in a treatment program for a few weeks or months, or 
whatever, and then expect them to be OK.
    To have a program that works you need to provide continual 
support for that individual and be able to track them, and 
continue that support after the treatment is over.
    A comprehensive case management approach with a case 
manager, supporting that individual as they move, say out of 
the prison system, into treatment programs and then into 
community, I think is going to be critical toward assuring that 
those individuals don't commit crimes again or have other 
problems. So we are working to see if we can get such a model 
in place. Of course it takes money, it takes staff to build up 
such an effort, but perhaps with some Federal support maybe 
looking at Hawaii as a model we could make this program work.
    Mr. Mica. Mr. Alm, yesterday I think you described to me 
the problem you have with people who are going through the 
State system of their delays, they're back on the street. It is 
a tough regimen as there is at the Federal level and your 
tougher cases you try to get into the Federal system. Yet there 
is a call now for doing away with minimum mandatory sentencing. 
And that is something you also have cited as being a tool that 
you can use for prosecution and tough enforcement.
    What should we do about minimum mandatory, leave it, change 
it?
    Mr. Alm. I think there may be some problems that certain 
communities in the neighborhood had with perceived disparity on 
how those have been applied. I don't think that's been the case 
here. When we are doing cases in Federal court it's for 
couriers who are all part of drug organizations, and those are 
the guys who are primarily getting hit with the mandatory 
minimums. I think it's a very useful tool. We have to get other 
people in those organizations and the mandatory sentences 
provide the impetus for them to do that.
    I think the best dollar would be spent on the programs 
you've--like the Kash Box program. That is something that's 
working, plus the followup when they get out. We know those 
guys are criminals who are committing crimes, who are 
committing the burglaries, who are committing the auto theft 
break-ins. We're not speculating about those guys. Every single 
one of those guys we can get off of drugs for when they move 
back out, it's going to save the State thousands of dollars in 
future crimes that can be avoided.
    And I think one of the reasons the Federal system is able 
to work is we deal with a smaller number of people. And so the 
penalties are higher. I think by us going after the 
traffickers, that's good use of that Federal dollar.
    Mr. Mica. I think we will have additional questions for the 
panelists, the witnesses who are here this morning, the first 
panel. And I think we have already had some questions to which 
we are seeking answers and we will leave the record open for 2 
more weeks for responding. So we ask for your cooperation in 
providing responses to submitted questions as some have been 
raised here at the hearing this morning.
    I do want to thank all three of you again for your 
professionalism, for your efforts in trying to assist with a 
very difficult societal problem and one that has particularly 
impacted the State of Hawaii.
    There being no further questions I will dismiss this panel 
and call the second panel this morning.
    The second panel consists of Major Susan Dowsett. She is 
the narcotics/vice division of the Honolulu Police Department 
with that division.
    And Mr. Ted Sakai; he is the Director of the State of 
Hawaii Federal Safety Department.
    Mr. Nat Aycox; he is the Port Director of the U.S. Customs 
Service.
    Next witness is Ms. Michele M. Leonhart, and she is the 
special agent in charge of the Los Angeles field division of 
the DEA, Drug Enforcement Administration.
    The final panelist is Major Randall Tom, and he's the 
counterdrug coordinator for the Hawaii National Guard.
    (Inaudible) This is an investigation and oversight 
subcommittee of the House of Representatives.
    I will swear in the witnesses if you would all please 
stand.
    [Witnesses sworn.]
    Mr. Mica. The witnesses have answered in the affirmative.
    I'd also inform the panel that we will add lengthy 
statements upon request to the record and also additional 
materials that you would like to see made part of this 
congressional hearing.
    With that I'm pleased to recognize Major Susan Dowsett. She 
is with the narcotics/vice division of the Honolulu Police 
Department.
    Welcome and you are recognized.

  STATEMENT OF MAJOR SUSAN DOWSETT, NARCOTICS/VICE DIVISION, 
                   HONOLULU POLICE DEPARTMENT

    Major Dowsett. Good morning. Dear Chair Mica, I'm going to 
basically discuss some of the drug challenges which face the 
Honolulu Police Department.
    Highly pure crystal methamphetamine remains the dominant 
drug problem in Hawaii. Although the drug is expensive and 
costs approximately $100 to $200 per gram on the street, its 
highly addictive nature and its abundant supply have made it 
the most problematic drug being abused in Hawaii today. Crystal 
methamphetamine use has frequently been associated with violent 
crimes and has contributed to the increase in property crimes.
    As with most other drugs entering our State, it is 
estimated that 90 percent of methamphetamine is imported by 
air. It is believed that the bulk of the methamphetamine 
entering Hawaii is manufactured in Mexican-based clandestine 
laboratories and then transported to California for 
distribution to Hawaii and other destinations.
    Cocaine use and distribution remains prevalent, with crack 
cocaine being preferred among users. While cases and arrests 
have declined slightly, seizures at the airport have increased.
    Heroin use in Hawaii is relatively low in comparison to 
methamphetamine and cocaine. However, the recent influx of 
Mexican black tar heroin is a matter of continual concern for 
law enforcement. Approximately 90 percent of all heroin coming 
to Hawaii arrives from Mexican sources and is controlled by 
Mexican-based organizations with a corps of runners or couriers 
operating between southern California and Hawaii.
    Marijuana has long been popular in Hawaii and is only now 
surpassed by crystal methamphetamine. Marijuana addiction is 
the--and there is a correction there, instead of ``second'' it 
should be ``third''--marijuana is the third most common primary 
drug problem among treatment admissions for adults, and is the 
No. 1 primary drug for juvenile treatment admissions.
    The majority of the marijuana supply in Hawaii is locally 
produced, high grade, and very potent. It is in demand 
worldwide by marijuana connoisseurs. Despite the abundant 
locally produced marijuana, there has been a dramatic increase 
in seizures occurring at the airport over the past 2 years.
    And to a lesser extent we have seen other drugs such as 
ecstasy, 6HB, and LSD come back in popularity especially among 
the teens and the young adults and military personnel who 
frequent the ``rave'' clubs, the ``rave'' scene.
    Thank you for the opportunity to testify.
    Mr. Mica. Thank you for your testimony.
    [The prepared statement of Major Dowsett follows:]

    [GRAPHIC] [TIFF OMITTED] T8506.049
    
    [GRAPHIC] [TIFF OMITTED] T8506.050
    
    Mr. Mica. We will now recognize Mr. Ted Sakai. And he is 
the director of the State of Hawaii Public Safety Department.

STATEMENT OF TED SAKAI, DIRECTOR, STATE OF HAWAII PUBLIC SAFETY 
                           DEPARMENT

    Mr. Sakai. Thank you very much, Chairman Mica and 
Representative Mink. Thank you for the opportunity of 
testifying before you this morning on this very important 
topic.
    The Department of Public Safety has two arms: One is the 
law enforcement, we are responsible for the State sheriffs as 
well as the narcotics enforcement division of the State of 
Hawaii. We also operate the correctional system in Hawaii. 
Given the ample representation that you have this morning on 
the law enforcement side I thought I'd focus my thoughts on the 
correction side.
    Our department, unlike most other States has a 
comprehensive correctional system. By this, I mean we are 
responsible, the State of Hawaii is responsible for its prisons 
and jails. In most jurisdictions you will see a split. The 
prison system is run by the State government, and the jail 
system by the county government. In Hawaii we have a 
comprehensive system where our department is responsible for 
both sides.
    Drugs have had a profound impact on the correctional system 
in Hawaii. We have had a tremendous growth in our inmate 
population. The focus of our rehabilitative efforts have 
shifted dramatically in the past 10 years because of drugs. And 
finally, the health needs of inmates has shifted dramatically 
because of drugs.
    As it regards population growth, the information I have 
provided you indicates that our prison population has increased 
by about 64 percent in the past 5 years, most of this is 
attributable to drugs. Drug-related offences has increased by 
221 percent in this period.
    Since 1996, we have had mandatory sentencing for the 
possession of crystal methamphetamine which has been referred 
to this morning as the No. 1 problem in Hawaii. The number of 
inmates admitted due to felony convictions for possession of 
ice has increased from 6.4 percent in 1995 to 10.3 percent in 
1999.
    Our prison population has increased to such an extent that 
we are currently housing about 1,200 inmates on the mainland. 
And this is a significant number because our department is 
responsible for a total of 4,700 inmates, prison and jail. In 
other words, about 25 percent of the people under our care and 
custody are housed in Oklahoma, Tennessee and Minnesota, not in 
the State of Hawaii, simply because we have run out of room, 
and we have chosen this means to avoid litigation based on 
conditions of confinement.
    Regarding the drug problems, the last time we were able to 
do a formal study was in 1991 and at that time the study 
indicated that 53 percent of the offenders in the correctional 
system committed their offenses while under the influence of 
drugs. I would not be surprised if that number has increased 
since 1991. That study also indicated that 85 percent of the 
incarcerated population have serious substance abuse problem 
that require treatment interventions.
    Regarding the health problem, our health care staff has 
found that substance abuse is directly related to serious 
medical problems that drain our resources, such as hepatitis A, 
B and C, liver disease, HIV and AIDS, organic brain damage, and 
psychosis. This was something I was not really aware of, but 
they also reported to me that tuberculosis is also related to 
use of drugs, which is unexpected.
    Drugs is also closely related to the high rate of mental 
illness in our correctional facilities. We estimate that more 
than 20 percent of our correctional population suffers from 
some sort of mental health problem. In 1999 we suffered from a 
rash of suicides in our system. We had seven suicides in our 
correctional system in Hawaii in calendar year 1999. In all 
seven cases the victims were serious drug users.
    The problem that is emerging in our consciousness, is a 
problem we call dual diagnosis. We recently conducted a survey 
just last fall and we found that 24 percent of the women and 9 
percent of the men have what we call co-occurring diagnosis, 
mental illness accompanied by substance abuse. And this is a 
problem that we're trying to formulate a strategy for right 
now.
    Some of the systemic treatment type problems that we see in 
our correctional system, No. 1, lack of common assessments 
among the various agencies in the criminal justice system. We 
need to coordinate better among probation, parole and the 
incarcerated populations; second, the lack of trained substance 
abuse professionals available for treatment for our population. 
And the third, perhaps the most serious, the lack of continuity 
of services for offenders exiting correctional facilities.
    As regards to this third point, I would like to point out 
that we surveyed in State fiscal call year 1999 about 1,000 
probation and parole violators returned to our system. Of the 
600 parole violators who returned 150 or 25--I'm sorry, 600 
probation violators, about 150 or about 25 percent were 
technical violators whose technical violation was drug use. In 
other words, they came back to prison simply because of drug 
use.
    But the parole statistics are even worse. About 40 percent 
of the 430 parole violators who returned to incarceration 
returned purely because of drug use.
    So as you can see the need for treatment for people exiting 
the correctional system is very important.
    Chairman Mica, with your permission I would like to just 
correct a number that you stated earlier. I believe the 
statistics for our Kash Box program which you visited 
yesterday--and thank you very much for doing so--indicate that 
30 to 40 percent of the Kash Box graduates fail on treatment. I 
think the statistics will indicate that about 70 percent of the 
serious drug users who do not go to treatment will return to 
incarceration.
    In our testimony, I further layout some of the programs 
that we have. They are very limited. Besides the Kash Box 
program we have a very small program for the women which is 
limited to 15 beds and we certainly could use more. We have a 
30 bed transition program on Oahu for Kash Box graduates who 
are returning to the community and we believe that this should 
be expanded.
    As regards our additional needs, the biggest area of need 
as I indicated would be for programs in the community for 
probationers and parolees to help them stay out of prison, and 
to assist them in making useful lives.
    I think treatment is an absolute necessity. But only 
through well thought out, coordinated and effective treatment 
is the State going to address its long-term prison overcrowding 
problem, which can really become very costly.
    Thank you very much.
    Mr. Mica. Thank you for your testimony.
    [The prepared statement of Mr. Sakai follows:]

    [GRAPHIC] [TIFF OMITTED] T8506.051
    
    [GRAPHIC] [TIFF OMITTED] T8506.052
    
    [GRAPHIC] [TIFF OMITTED] T8506.053
    
    Mr. Mica. I will recognize now Mr. Nat Aycox. He's the Port 
Director the U.S. Customs Service. Welcome and you are 
recognized, sir.

  STATEMENT OF NAT AYCOX, PORT DIRECTOR, U.S. CUSTOMS SERVICE

    Mr. Aycox. Thank you, Chairman Mica, Representative Mink.
    I am Nat Aycox. I'm the Port Director for the combined 
Customs ports for the State of Hawaii. I'm also representing 
resident agent-in-charge Larry Burnett of the Honolulu Customs 
Office of Investigations. Thank you for inviting me to speak 
this morning.
    In the past 5 years, the dynamics of drug smuggling have 
been changing dramatically. Hawaii continues to be assaulted, 
however, by an influx of drugs from outside our borders, both 
internationally and domestically.
    In its long history as a conduit for drugs headed from 
Southeast Asia to the mainland, Hawaii has seen many 
significant heroin seizures by Customs at Honolulu Airport.
    In the past decade methamphetamines and designer chemicals 
have been added to the shopping list of illegal drugs. With the 
notable exception of opium smuggling, international drug 
shipments to Hawaii are now as likely to come from Canada or 
Mexico as they are from Asia.
    Recently, inspectors at our air cargo station discovered 8 
kilos of marijuana and 290 grams of designer MDMA known as 
ecstacy from Canada. Customs special agents arrested three 
individuals associated with the shipment. Earlier this month 
Customs special agents arrested two men in Waikiki after a 
controlled delivery of 21 pounds of BC buds that were 
discovered by inspectors in Danville, WA. BC buds are British 
Colombian hot-house grown marijuana that tested 33 percent TAC 
content.
    The emergence of Colombia as America's principal heroin 
supplier has turned that market upside down. Mexico also serves 
as a supplier and conduit of illegal drugs. Today Hawaii is not 
only a destination for drugs, but has also become a transit 
point for Mexican and South American drugs destined for 
Australia, Guam, the South Pacific islands and Asia. Asia 
continues to be a threat, however, with intelligence still 
reporting significant trafficking groups to Thailand and the 
Philippines. We anticipate some of these new patterns will 
again reverse themselves as Asia rebuilds its economy and China 
enters both tourism and the illicit narcotics marketplace.
    For the 5-years, the Honolulu Customs mail facility is 
(inaudible) up an average of 235 pounds of opium each year in 
parcels and Laos.
    Shifts in trafficking patterns are normal for drug 
smuggling operations which continue to change and evolve to 
take advantage of any weaknesses detected in law enforcement 
efforts. Of all drugs coming in to Hawaii, the one of greatest 
concern to us in Customs and here in the community, is crystal 
methamphetamine. Virtually unknown a decade or so ago crystal 
methamphetamine known on the street as ice is a crystallized 
form of what was known as ``speed'' in the 1960's. This 
odorless, colorless drug originally began arriving in Hawaii 
from the Philippines and Korea.
    As people can tell you, users who smoke this drug for 24 to 
48 hours without sleeping become desperately paranoid. Mixed 
with firearms, the drug becomes lethal and has resulted in 
numerous armed hostage situations, domestic violence scenes and 
armed police standoffs. Most recently, and sadly, Dominick 
Kealoha shot and killed himself in Nanakuli after an ice field 
stand-off with police. We join U.S. Stephen Alm in applauding 
the Honolulu Police Department for their outstanding handling 
of this and other recent tragic agent.
    It's anticipated that synthetic chemical drug smuggling 
will increase as these drugs become more popular and available. 
We have already seen an increase in the implementation of 
steroids, tranquilizers and prescription drugs through the 
postal system and the express consignment operators as more and 
more Web sites in foreign countries are offering to send these 
items over the internet.
    Honolulu Customs continues to work diligently with local 
law enforcement agencies and other Federal agencies and the 
National Guard in a unified effort to suppress the importation 
of illegal drugs. We are very aware of the opportunities now 
available, since Hawaii's destination as a high intensity drug 
trafficking area.
    Our cooperation is extended overseas and was exemplified in 
the 1998 operation at Norita Airport in Japan to study the 
potential for that key Asian hub to be a transit point for 
southeast Asian narcotics. Our study revealed that Norita has a 
high potential for being a transit point for drugs into major 
American cities.
    U.S. Customs has an aggressive community outreach program. 
For example, we send our K9 enforcement officers into schools 
to educate our island children on the dangers of illegal drugs. 
K9 enforcement officers and their drug detector dogs provide an 
antidrug program for over 2,000 island school children last 
year.
    Customs also takes a multilateral approach to attacking 
drug smuggling in Hawaii. We work very closely with the Coast 
Guard and Customs services of Australia and New Zealand to 
monitor maritime trafficking in and out of the islands. We also 
monitor air and sea cargo, mail and express courier operations, 
and air passenger traffic.
    Honolulu is the seventh largest international airport in 
terms of foreign passenger arrivals. We are the fourth; it has 
dropped because of the Asia crisis.
    We remain on the lookout for drugs both entering and 
leaving the United States. We also monitor currency entering 
and leaving the United States that may have been used in drug 
transactions.
    In two recent cases the mail facility seized money being 
mailed from Guam to the West Coast to pay for crystal 
methamphetamine.
    Mr. Chairman, I know that you and the other members of the 
subcommittee have been very supportive of Customs Service. I 
wish you continued success in your efforts. And we know that 
you are working to secure funding for Customs through the 
pending Colombia supplemental procreation bill. In another area 
Customs could also use some assistance in closing the loophole 
that allows drug traffickers and money launderers to avoid 
Customs inspection for shipments that move in transit or 
through outbound mail. We believe the mail can be and is being 
used to export illegal drug proceeds.
    The men and women of the Customs Service who serve as 
guardians of the Nation's borders appreciate your concern and 
continued support on this very serious matter.
    I'll be happy to answer any of your questions.
    Mr. Mica. Thank you.
    [The prepared statement of Mr. Aycox follows:]

    [GRAPHIC] [TIFF OMITTED] T8506.054
    
    [GRAPHIC] [TIFF OMITTED] T8506.055
    
    [GRAPHIC] [TIFF OMITTED] T8506.056
    
    Mr. Mica. We will hear next from Michele M. Leonhart. And 
she is the special agent in charge of the Los Angeles Field 
Division of the Drug Enforcement Administration.
    Welcome and you are recognized.

STATEMENT OF MICHELE M. LEONHART, SPECIAL AGENT IN CHARGE, LOS 
    ANGELES FIELD DIVISION, DRUG ENFORCEMENT ADMINISTRATION

    Ms. Leonhart. Thank you. Chairman Mica, Congresswoman Mink 
and members of the subcommittee, I am pleased to have the 
opportunity to appear here today to discuss drug-related issues 
facing the State of Hawaii. I would first like to thank the 
subcommittee for its continued support of the Drug Enforcement 
Administration and overall support of drug law enforcement. My 
testimony today will provide you with an objective assessment 
of the law enforcement issues surrounding the drug threat 
throughout the State of Hawaii.
    Hawaii's position in the national drug market is unique, 
due primarily to its location and its isolation from the 
mainland. Illicit drugs, like other commodities here in Hawaii, 
command a premium price within the State. Drug trafficking 
organizations have found it extremely profitable to establish 
distribution outlets here in Hawaii. With profit margins in 
excess of 300 percent from those on the mainland, traffickers 
are willing to take the risks associated with drug trafficking.
    I will give you an example. A pound of methamphetamine in 
the State of California goes for between $10,000 and $15,000. 
That same pound will sell here in Hawaii for between $30,000 
and $35,000.
    Throughout the State of Hawaii all types of drugs are 
available. Most drugs are smuggled into the area from the 
mainland United States, principally California. Recently even 
marijuana which is cultivated here in abundance has been 
intercepted in transit from Canada destined for Hawaii.
    Since Hawaii is an island State surrounded by water, the 
threat for introduction of drugs by means of vessel is always 
present. And historically preferred method has been by way of 
commercial air travel. The drugs are either concealed in 
accompanying baggage, hand carried, or what we call body 
carried.
    The most alarming trend is the fact that the quantities of 
drugs entering Hawaii or accessible in Hawaii are increasing at 
a rapid rate. This is not only true on Oahu but on the neighbor 
islands as well. Methamphetamine, heroin, cocaine are among the 
most popular drugs brought into the State.
    I would now like to discuss these drugs in greater detail.
    Since early 1999, Hawaii retail and wholesale prices for 
crystal meth which we are calling ``ice'' have remained stable 
following an abrupt increase experienced in 1997. During the 
past 10 to 12 months we have noticed an increased involvement 
by Hispanic drug traffickers in all facets of drug trafficking 
here in Hawaii. Previously, Mexican or Hispanic drug 
traffickers occupied the positions of sources and supply for 
the meth coming into Hawaii. Local drug trafficking groups, 
utilizing local networks, distributed the drugs once they got 
into Hawaii. It appears, however, that the Mexican and Hispanic 
trafficking groups have moved into the distribution aspect of 
the drug business as well.
    Up until late 1998 the labs seized were relatively small 
and restricted to the conversion process, i.e., converting 
methamphetamine to ice. The potential for a fully functional 
ice production lab was realized in late 1999 when a clan lab 
site was located and dismantled on the island of Maui.
    In Hawaii, as well as at the national level, meth abuse and 
meth-related criminal activity has continued to increase over 
the past 2 years. The latest drug treatment made available 
indicates that methamphetamine was the primary drug reported by 
subjects seeking voluntary drug rehabilitation treatment in 
Hawaii. All too often parental use of ice results in instances 
of serious child abuse.
    Today, similar to methamphetamine, Hawaii faces an increase 
of black tar heroin use. The drug, manufactured in Mexico, is 
readily available throughout Hawaii. Hispanic trafficking 
groups working in concert with relatives and associates on the 
mainland and in Mexico control the distribution of heroin from 
entry point to street sales. The black tar heroin is smuggled 
into Hawaii in multi-ounce and multi-pound quantities primarily 
from the Los Angeles area via commercial air courier or through 
parcel services. Hispanic and Mexican nationals involved with 
the heroin trafficking trade in Hawaii are rotated frequently 
between the islands and back and forth to the mainland and to 
Mexico. The traffickers do this to maintain low profiles within 
the community to confuse law enforcement efforts.
    Although heroin-related deaths on the mainland have 
decreased over the past 2 years, it should be noted that the 
heroin user population is increasing and that the new users are 
a younger age. Street dealers actually recruit new customers by 
soliciting around schools and/or nearby drug treatment centers. 
This methodology was initiated by Mexican traffickers operating 
in Hawaii. The quality of street heroin available in Hawaii is 
extremely high, usually between the 50 to 70 percent range. 
Considering this factor, addiction may occur much more rapidly, 
and the probability of an accidental overdose will be greater 
for the inexperienced user.
    Cocaine in kilo quantities is readily accessible throughout 
the State. The use and street sales of crack cocaine, which is 
cocaine base, has remained stable over the past year. Cocaine 
does not have the popularity of ice in Hawaii but it is readily 
available from heroin or ice dealers. It is often used in 
combinations with other drugs or alcohol and is less expensive 
than ice.
    Marijuana production continues to be a significant problem 
within the State of Hawaii. Hawaii has always had the dubious 
distinction of supplying some of the best marijuana to the 
world. Marijuana is another drug of choice among Hawaii 
residents, unfortunately including many middle and high school 
children.
    Marijuana cultivators, active on all major Hawaiian 
islands, pose an ever-changing menace to the environment and 
public domain. Growers utilize both public and private lands to 
further their industry with little regard for others. And in 
fact often intimidate visitors, hikers and hunters who 
inadvertently trespass onto their grow sites.
    New drugs such as MDMA, GHB, Rohipnol and steroids are 
available in Hawaii and are used and distributed in fitness and 
dance clubs frequented by the late teen or early 20's crowd. 
GHB and Rohipnol are also known as ``date rape'' drugs. Several 
GHB clan labs were actually seized in the State of Hawaii 
during the last 2 years.
    The DEA Honolulu office acknowledges that in order to 
effectively identify, target and dismantle organizations 
responsible for trafficking these drugs, they must work with 
other Federal, State and local agencies. As a result, the 
Honolulu district of the DEA has a close working relationship 
with all four county local law enforcement departments as well 
as the State and other Federal agencies engaged in drug law 
enforcement. It would be virtually impossible for the DEA to 
effectively pursue the majority of its investigations in Hawaii 
and the Pacific area without this cooperative effort.
    One such example of cooperative effort, you heard from U.S. 
Attorney Alm, is the Weed and Seed program managed by his 
office.
    Due to an intense effort by the Honolulu PD over 100 
arrests were made in a recent Weed and Seed task force 
operation. The majority of the defendants were prosecuted 
federally. Several businesses were seized as a result of the 
drug trafficking activity that was condoned by the owners.
    In fiscal year 2001 there is a Weed and Seed initiative, I 
am told, that will focus on another area of Oahu that has a 
high incidence of drug abuse, poverty and criminal activities.
    In 1999 the State of Hawaii was designated as a High 
Intensity Drug Trafficking Area, otherwise known as HIDTA, 
which again provides for cooperative law enforcement approaches 
to the drug situation throughout the State. HIDTA funding 
should provide a much needed shot in the arm for State, local 
and Federal drug enforcement units in Hawaii. These additional 
resources will enable the four county police departments and 
the State and Federal agencies with drug interdiction programs 
to combine their efforts and focus their resources to make the 
greatest impact on the drug trafficking problem that faces 
Hawaii today.
    As I have already stated, the primary threat that Hawaii 
faces in our ability to attack the traffickers at the point 
they are most vulnerable, is at the airports. Drug traffickers 
are aware of the success of the drug interdiction program that 
has been in place at the Honolulu International Airport for 
several years and have moved their operations to airports 
located on neighboring islands. The HIDTA executive committee 
is aware of this shift in the trafficking pattern and is taking 
steps to ensure that this threat is addressed, as soon as the 
HIDTA is fully functional. We at DEA will be an aggressive 
partner and we fully support the HIDTA initiative by providing 
manpower, expertise in airport operations and interstate 
communications network to provide drug transportation 
intelligence rapidly. We plan to actively participate in the 
intelligence center and be available to assist the four county 
police departments and State agencies with the development of 
their individual initiatives. If we are successful in this 
endeavor the drug traffickers will be forced to find another 
means of smuggling their illegal drugs into the State of 
Hawaii.
    Ladies and gentlemen, as we speak the Honolulu district 
office is conducting two major drug trafficking initiatives 
targeting drug trafficking groups operative throughout Hawaii. 
These enforcement efforts are being made in concert with the 
Honolulu PD, the Maui PD, the Hawaii Police Department, the 
Kauai Police Department, the Honolulu office of the FBI, ATF, 
U.S. Immigration, U.S. Customs and IRS. These types of 
investigations demanding the participation of multiple agencies 
will become the norm rather than the exception in the months 
and years to come.
    Congressman Mica and Congresswoman Mink, I thank you for 
providing the opportunity to address the subcommittee and look 
forward to answering any questions you have.
    Mr. Mica. Thank you.
    [The prepared statement of Ms. Leonhart follows:]

    [GRAPHIC] [TIFF OMITTED] T8506.057
    
    [GRAPHIC] [TIFF OMITTED] T8506.058
    
    [GRAPHIC] [TIFF OMITTED] T8506.059
    
    [GRAPHIC] [TIFF OMITTED] T8506.060
    
    [GRAPHIC] [TIFF OMITTED] T8506.061
    
    [GRAPHIC] [TIFF OMITTED] T8506.062
    
    [GRAPHIC] [TIFF OMITTED] T8506.063
    
    [GRAPHIC] [TIFF OMITTED] T8506.064
    
    [GRAPHIC] [TIFF OMITTED] T8506.065
    
    Mr. Mica. We'll hear from our final witness Major Randall 
Tom.

   STATEMENT OF RANDALL TOM, COUNTERDRUG COORDINATOR, HAWAII 
                         NATIONAL GUARD

    Major Tom. I'm Randall Tom, the Hawaii National Guard 
Counterdrug Coordinator. I am here to provide testimony on our 
program efforts in responding to drug challenges in Hawaii.
    Over the past 10 years, the Hawaii National Guard has 
increased its emphasis on counterdrug activities as concerns 
about illicit drug use in the United States have grown. In 
1997, the Hawaii National Guard was the first in the Nation to 
utilize National Guard personnel to provide support to drug law 
enforcement agencies with Operation Green Harvest. The focus of 
that operation was directed at marijuana eradication; that 
continues to be the primary criteria for our funding to this 
day.
    Our support to law enforcement agencies and community-based 
organizations are sanctioned and approved by the Governor, 
State Adjutant General, State Attorney General, and the 
National Guard Bureau under the provisions of Section 112, 
Title 32, United States Code. Each year we develop the 
Governor's Counterdrug Support Plan that delineates the support 
requirements established by local law enforcement and 
community-based organization. The three State leaders mentioned 
earlier certify that Hawaii National Guard soldiers and airmen 
can support counterdrug activities complying with State Law and 
Section 2012(d), Title 10, United States Code to meet the 
requirements of each fiscal year's Defense Authorization Act.
    Presently, the fiscal year 2000 plan provides Hawaii 
National Guard personnel services and equipment to support the 
drug law enforcement agencies mission of not only eradicating 
domestically grown marijuana, but also interdicting illicit 
drugs entering Hawaii, and providing drug demand reduction 
training and resources to community-based prevention 
organizations.
    National Guard members have significantly participated in 
this effort as I will elaborate further in my testimony. Our 
support covers a wide range of activities including, but not 
limited to, aerial and ground reconnaissance, intelligence 
analysis, and cargo inspections at ports of entry. The 
operations also include administrative and logistics support to 
release commissioned law enforcement personnel to perform their 
duties on the street.
    Our counterdrug organization consists of 63 Hawaii National 
Guard personnel. The agencies that we support include the 
Federal Bureau of Investigations, U.S. Attorney, U.S. Customs 
Service, U.S. Marshals, Drug Enforcement Agency, U.S. Coast 
Guard, the Department of Public Safety State Narcotics and the 
four county police departments.
    We provide intelligence analysis and investigative case 
support to the FBI's Narcotics Vice Airport Detail, the Western 
States Intelligence Network, and the county police departments' 
criminal intelligence units. We actively participate in 
reviewing and analyzing collected information and provide 
legal, paralegal and auditing assistance that optimizes law 
enforcement agents to perform drug enforcement duties. We also 
provide communications support in establishing, operating and 
maintaining equipment for counterdrug operations. We've used 
Hawaii National Guard equipment to detect crack houses, to 
clear gambling huts and shacks and dog pits and chicken 
fighting areas where drugs were prevalent.
    We also provide transportation support to enhance the law 
enforcement agencies and community organizations. Our support 
constituted mass movement of sheriffs to conduct prison raids 
and provided vehicles for tactical tracking in Hilo. In 
addition, our equipment has been utilized to participate in 
search and rescue missions and assist with security 
requirements during events and conferences. We transported over 
400 of the 34,000 during the Millennium's Young People's 
Congress in October 1999, and provided administrative and 
logistical support for the ``Ready to Learn'' program that 
delivered school supplies to more than 30,000 children 
statewide.
    We utilized both Hawaii Army and Air National Guard CH-47, 
C-26 and C-130 assets to assist in missions such as 
transporting the State Department of Public Safety during 
prison shake-downs combating drug trafficking on neighbor 
islands, working with the Maui Police Department during 
community policing, vice narcotics and special operations, and 
assisting State narcotic agents in completing their drug 
investigations. We collaborated with the Department of 
Education in assisting Sam Choy, one of Hawaii's nationally 
renowned chefs, to conduct cooking presentations and promote 
drug free awareness through his ``Forget the Crime, Cook the 
Grinds'' vignettes. We have been a team player with the HPD's 
gang detail and DARE contingencies to fostering drug awareness 
through their ``Teen Dances'' and ``No Hope in Dope'' programs, 
and airlifted FBI and DEA surveillance personnel and vehicles 
for counterdrug missions.
    Our personnel at the U.S. Customs Service inspect 100 
percent foreign mail, all inbound international luggage and 
randomly check domestic luggage, perform 100 percent inspection 
on foreign ships and cargo, and assist in random inspections of 
domestic and international planes.
    We provide training in the form of safety observed 
familiarization for law enforcement agents authorized to sit in 
the OH-58A helicopter front seat in Operation Wipeout--
marijuana eradication--issues. In January 2000 we provided 
Power Point presentation classes for Western States 
Intelligence Network personnel to enhance case agents' 
capabilities to share critical information for ongoing 
investigations. In our efforts to address the employment and 
quality of life issues with the Waimanalo community, our 
counterdrug members have provided computer training to adults 
and eventually expanded this training to the children. 
Likewise, we have trained our guard members in computer, 
clerical, research and various administrative skills to better 
serve the law enforcement agencies.
    As part of our drug demand reduction efforts, we have 
instituted various training venues. Parent to Parent Training 
empowers parents and guardians to confront critical issues 
concerning drugs, gangs, sex, violence and values. Safe Passage 
Training is phase two of our parent training that emphasizes 
nonviolence and positive role modeling.
    Na Koa Ku Makani--The Warrior Who Stands Against The Wind--
is a drug free day promoting family activities done in 
partnership with Housing and Community Development Corp. of 
Hawaii for community and National Guard parents and children 
with informational booths and games. Throughout the years we 
have supported children and youth day programs, community 
action seminars that mobilize communities to take action in 
preventing crimes in their neighborhoods, Department of 
Education's Elementary School Attendance Program, recently a 
new program that assists parents of elementary school children 
improve school attendance through a mandated program. Our 
training to youth challenge program participants have been a 
positive influence to high school ``at-risk'' students.
    Our funding has grown from $159,000 in 1989 to $1.9 million 
in 1997. However, it has decreased by $200,000 each year since 
then. In our efforts to stabilize the budget, we enlisted 
congressional support and received additional funding through a 
plus up in congressional appropriation based on Hawaii's rating 
as the premiere State in outdoor marijuana eradication. As a 
result, our budget has increased to a total of $4 million in 
fiscal year 2000.
    Without congressional support Reconnaissance and 
Interdiction Detachment [RAID] Mission would cost approximately 
$1 million, and thus any additional support to law enforcement 
or community-based organizations would be minimized or 
terminated. The Hawaii National Guard's RAID program is the 
only military resource available to address the State of 
Hawaii's unique challenges of marijuana cultivation.
    In summary, the Hawaii National Guard Counterdrug Program 
is a proud and rich heritage in providing for the defense of 
our communities. We have been and continue to be staunch 
supporters of our law enforcement organizations in their 
valiant efforts to minimize and eventually eradicate illicit 
drug productions, trafficking and use in Hawaii. Our drug 
awareness programs have been successful in developing and 
fostering drug free environments for parents, children and 
neighborhood communities.
    In addition to supporting our efforts to stabilize the 
Hawaii National Guard's $4 million budget, we also solicit your 
support for the National Guard's 4,000 soldier/airman end 
strength and $192 million budget for fiscal year 2001. This 
will ensure the continued support of the Hawaii National Guard 
Counterdrug program for Hawaii's law enforcement agencies and 
community organizations.
    Thank you for the opportunity to provide you an insight 
into the Hawaii National Guard's contribution to the 
counterdrug efforts.
    Mr. Mica. Thank you for your testimony.
    [The prepared statement of Major Tom follows:]

    [GRAPHIC] [TIFF OMITTED] T8506.066
    
    [GRAPHIC] [TIFF OMITTED] T8506.067
    
    [GRAPHIC] [TIFF OMITTED] T8506.068
    
    [GRAPHIC] [TIFF OMITTED] T8506.069
    
    [GRAPHIC] [TIFF OMITTED] T8506.070
    
    Mr. Mica. I thank all the witnesses on the second panel.
    I have some questions. First, Dr. Sakai, you describe the 
prison population that's dramatically increasing and most of 
them got there because of some drug-related offense.
    Describe the type of offenses--you also--and I think I 
believe I got this correct. You have a combined sort of local 
jail and State prison system?
    Mr. Sakai. That's correct.
    Mr. Mica. Sometimes I hear this, that the people behind 
prison in these large numbers are there for minor marijuana 
personal use or offenses. Is that the case with your prison 
population? Describe what kind of offenses that your prison 
population and your increase in prison population are there 
for.
    Mr. Sakai. Our prison population consists of about 26 
percent violent offenders, 11\1/2\ percent sex offenders, 16 
percent property offenders and about 18 percent drug offenders. 
In addition there is 17\1/2\ percent consisting of probation 
and parole violators. Unfortunately, our information does not 
yield the crime that they committed.
    Mr. Mica. The drug offenses which account for 18 percent, 
would that be primarily trafficking? What would be the 
breakdown?
    Mr. Sakai. I don't have that breakdown.
    Mr. Mica. Can you guesstimate? I mean are these people 
there for possessing a small amount of marijuana or are they 
there for violation of trafficking laws and quantities?
    Mr. Sakai. I don't want to guesstimate. I would prefer to 
see if I can get back and get better numbers.
    Mr. Mica. Would you provide us with that?
    Mr. Sakai. Yes, I can. But, Chairman Mica, if I can say, I 
believe that the majority almost all of them are there for 
trafficking, or if they're there for small amounts, they are 
there because they are repetitive drug users who failed--they 
were given the opportunity to get treatment in the community.
    And it is my impression that the court and parole systems 
in the State of Hawaii are fairly liberal. I have spoken to the 
heads of probation and parole and both have indicated to me 
that their policy is to not return a violator to prison until, 
perhaps, their third violation. So if they are there for a 
small amount they are there because they are repeat offenders.
    Mr. Mica. Major Dowsett, you are seeing these people on the 
streets. What are you arresting them for as far as it relates 
to drug offenses? Possessions, and what kind of possession, 
trafficking, felonies committed under the influence of 
narcotics?
    Major Dowsett. All kinds, actually. We have the one Weed 
and Seed area and of course any violation or even seen in the 
Weed and Seed area would subject them to an arrest. Possession, 
distribution, primarily. And that would pattern what Mr. Sakai 
was saying.
    Normally before they actually get to jail they have had a 
whole lot of other options. We have drug court. The prosecutors 
don't always include the meth language when we go to court so 
we can circumvent the mandatory sentencing there. We really do 
see a variety.
    Mr. Mica. Of that property crimes, it sounds like property 
crimes were the biggest percentage, Dr. Sakai; is that correct?
    Mr. Sakai. Actually violent crimes.
    Mr. Mica. Violent?
    Mr. Sakai. Violent.
    Mr. Mica. Was that 16 percent?
    Mr. Sakai. That was 26 percent; 16 percent was property.
    Mr. Mica. 26 percent were violent?
    Mr. Sakai. That's correct.
    Mr. Mica. And what are you seeing with the violent crimes, 
Major Dowsett, are they drug related?
    Major Dowsett. Virtually all of them are drug related in 
one respect or another.
    Mr. Mica. Property crimes.
    Major Dowsett. Yes. (Inaudible.) Even your misdemeanor 
offenses a lot of them are drug related, you know, petty thefts 
to get money for drugs.
    Mr. Mica. On the correction side, Dr. Sakai, you said--you 
gave us a couple of figures here; 95 percent of those in prison 
have a substance abuse problem, was that----
    Mr. Sakai. 85 percent.
    Mr. Mica. 85. I want to make sure I get those numbers 
correct.
    And how would you break that down between alcohol and 
narcotics?
    Mr. Sakai. It is my impression that what we are dealing 
with is addictive personalities where ice happens to be the 
drug of choice. I think virtually all of them will use alcohol 
if that's what it takes to get high.
    I have been in the system for about 30 years and that's the 
biggest change I have seen in the makeup of the criminal 
population. When I started we couldn't identify the type of 
person who used marijuana versus the type of person who might 
have used heroin. My impression today is that a drug user will 
use whatever drugs becomes available until he or she gets 
addicted to the drug, and alcohol is a factor.
    Mr. Mica. The program I visited had about 200 folks in it, 
Kash Box. That's your major program in Hawaii?
    Mr. Sakai. That's correct.
    Mr. Mica. And you said you had a small one for female 
population?
    Mr. Sakai. At our women's facility we have a program for 
about--we have a maximum capacity of about 15.
    Mr. Mica. In your State prison what kind of drug treatment 
programs----
    Mr. Sakai. We have a small counseling program, and we have 
three staff at our prison.
    Mr. Mica. I didn't get the budget for the program yesterday 
but do you know what the Kash Box annual budget is?
    Mr. Sakai. I would have to go back.
    Mr. Mica. If you could provide that for the record I would 
like to see that because it seemed like it served a large, 
fairly significant population for a small amount of money. You 
don't know what it cost per day?
    Mr. Sakai. No. Treatment programs in prison tend to be a 
little less expensive than in a community because the inmate 
spacing needs are already taken care of through the 
correctional budget; their care, shelter, and food.
    Mr. Mica. But if the figures I got are correct, and I'm not 
sure what it does cost you to incarcerate someone in the State 
system behind bars in a secure facility as opposed to treatment 
programs there, it seemed like it was actually less per head 
for the treatment program than it was for doing hard time.
    Is that correct?
    Mr. Sakai. It would depend on the treatment program.
    Mr. Mica. Well, you've got that one treatment program.
    Mr. Sakai. Well, let me get the figures for you.
    Mr. Mica. If you could. Because if that's the case and 
again I heard some figures yesterday and I haven't had them 
substantiated, but it looked like it was fairly reasonable to 
put them in that program, and it seemed like it also takes a 
burden off the State to put more people in that program as 
opposed to doing hard time.
    We also had commentary from those who participated in the 
program. One of the comments from one of the prisoners was that 
the hard time they came in and left even more hardened, 
inclined to have criminal skills as a result of the time in the 
tougher prison.
    And of course you can't shift everybody into these 
programs, but if it's cost effective it might be something we 
would want to encourage supporting (inaudible).
    Mr. Sakai. I will get you the figures.
    Mr. Mica. I appreciate that.
    Mr. Aycox, how many full-time Federal slots does Customs 
have here?
    Mr. Aycox. In the port of Honolulu I have a total of 185 
people.
    Mr. Mica. Chronologically in the past few years, has it 
increased, decreased, stable?
    Mr. Aycox. It has in the last, say year or so, dropped a 
little bit.
    Mr. Mica. Dropped a little bit. And is that just this 
location, or I'm not sure if there are other assignments in 
Hawaii? Are you taking all of Hawaii or just Honolulu.
    Mr. Aycox. The number I quoted referred to the uniform 
contingent. The group I supervise--my counterpart Larry Burnett 
supervises a group of investigative agents and they have 
decreased staffing somewhat over in the last couple years as 
well.
    Mr. Mica. We had testimony from Major Dowsett that 90 
percent of the stuff is coming in by air. I think that was your 
testimony.
    What are we missing with Customs to not be able to catch 
more? Do we not have the enforcement power, or the technical 
capability, or just the sheer volume.
    Mr. Aycox. Well, I think the statement was made 90 percent 
by air that included domestic and international air. And I 
think that the available intelligence indicates that the 
majority of it is coming in domestically, which of course we 
are not empowered to deal with except in support of the other 
agencies.
    Mr. Mica. (Inaudible) coming through from the mainland, 
DEA, is that more their responsibility than yours?
    Mr. Aycox. It's a function of the task force which we 
supplement by HIDTA as well.
    Mr. Mica. So you think that would have a better coordinated 
effort utilization of (inaudible) or at least detect coming 
through the airport.
    Is there something missing at the airport on domestic 
flights that we aren't doing?
    Mr. Aycox. I would defer on that to the other agencies 
because I believe that's their question to answer.
    Mr. Mica. Leonhart.
    Ms. Leonhart. I would say we are doing a very good job with 
the limited resources we have.
    Mr. Mica. How many do you have?
    Ms. Leonhart. Currently at the airport we have eight task 
force officers and we have three special agents working cases 
with one DEA supervisor. Those numbers have been stable for 
over the last 3 or 4 years.
    What we are really lacking is increases in our personnel on 
the other islands because you've heard testimony, that we are 
very concerned about traffickers now using the airports on the 
other islands.
    Our relationship with Honolulu PD in these interdiction 
efforts is outstanding, and what we are finding, the more we 
are working together on the air threat, the more intelligence 
we are actually passing from Los Angeles on these trafficking 
organizations to the airport detail and the more arrests we are 
able to make, I see the HIDTA as a great supplement here. If 
DEA were to get additional resources for Honolulu I would be 
looking at beefing up the airport and putting additional 
resources on the outer islands.
    Mr. Mica. It appears the package transport mail, Fed Ex, 
UPS, DHL, or other package services also seems to have an 
increased trafficking in illegal narcotics. Is that the case, 
is that something you have seen?
    Mr. Aycox. Yes. We are seeing both the courier services 
throughout the Nation and the mail conditions across the Nation 
with increased interdiction, not only in the traditional drugs, 
but in the newer designer drugs, and now in the prescription 
drugs and steroids.
    Mr. Mica. Are you getting any of the ion scanning equipment 
that we've ordered?
    Mr. Aycox. We have one ion scanner here that we use on a 
regular basis. And in addition I believe the National Guard has 
one that we share on a regular basis.
    Mr. Mica. Thank you. Mrs. Mink.
    Mrs. Mink. Thank you very much. I'd like to put some of 
these documents that I received into the record and make 
reference to it.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T8506.071
    
    [GRAPHIC] [TIFF OMITTED] T8506.072
    
    [GRAPHIC] [TIFF OMITTED] T8506.073
    
    [GRAPHIC] [TIFF OMITTED] T8506.074
    
    [GRAPHIC] [TIFF OMITTED] T8506.075
    
    [GRAPHIC] [TIFF OMITTED] T8506.076
    
    [GRAPHIC] [TIFF OMITTED] T8506.077
    
    [GRAPHIC] [TIFF OMITTED] T8506.078
    
    [GRAPHIC] [TIFF OMITTED] T8506.079
    
    [GRAPHIC] [TIFF OMITTED] T8506.080
    
    [GRAPHIC] [TIFF OMITTED] T8506.081
    
    [GRAPHIC] [TIFF OMITTED] T8506.082
    
    [GRAPHIC] [TIFF OMITTED] T8506.083
    
    [GRAPHIC] [TIFF OMITTED] T8506.084
    
    Mr. Mica. One is the drug situation?
    Mrs. Mink. Yes, the drug situation.
    Mr. Mica. By the intelligence division of DEA?
    Mrs. Mink. That's correct.
    Mr. Mica. That's without objection, so ordered.
    Mrs. Mink. Trying to get a handle on the total presence of 
these drugs in Hawaii, and I'm looking at this first chart on 
page 1 of this document talks about drugs seized in Hawaii, 
1997, 1998, and 1999. In heroin in kilograms, 2.7; cocaine in 
kilograms, 32.1; marijuana in kilograms, 42.5; methamphetamines 
in kilograms, 16.2.
    Reference again those figures to drugs seized. What would 
be the estimate of, in each of these four categories, of the 
total presence of drugs in Hawaii say in that last recorded 
year 1999? We see the figure of the amount seized. What would 
be the total figure of heroin as it is available in Hawaii? 
Cocaine as available, marijuana, methamphetamine.
    Ms. Leonhart. I'd be happy to answer that by saying that 
with the designation of Hawaii or Honolulu as a High Intensity 
Drug Trafficking Area, and the funds that will come with that; 
set up an intel center, we will have a better idea. One of the 
frustrations of running the Los Angeles field division is in 
Los Angeles we have had, over 10 years now, had an intel center 
set up that can give you good estimates.
    There is really no place to go in Honolulu or in Hawaii to 
find good estimates. So we look at the trends; we look at what 
has the DEA seized; we go and look at State seizure numbers. 
But I don't feel comfortable, I would say, that that's where 
we're hoping HIDTA fits in. I don't feel comfortable that we 
know the numbers that we have not seized. I can also tell you 
that the numbers are a little bit deceiving because the use 
of--like Congressman Mica said--the use of the parcel, the UPS, 
the Fed Ex, we are seizing great quantities in Los Angeles and 
southern California that are destined for Honolulu which don't 
show up in these numbers, and we are also through airport 
interdiction, especially at LAX Airport, we are able to 
interdict those drugs before they ever get on the flight to go 
to Honolulu. So those numbers really only represent the drugs 
that were seized by DEA and sent to DEA laboratories.
    Mrs. Mink. Could we have those figures of the drugs that 
are seized on the West Coast that were bound for Hawaii so we 
can get a better view of the interdiction and the potential 
traffic that at least has been stopped on the West Coast?
    Ms. Leonhart. What I can do--we started looking at it, 
because there is a trend as the Mexico based organizations have 
moved over to Honolulu, we are keeping track of what we can. 
There are no statistics; we haven't been keeping them for a 
long period of time. We recognize that this is a trend to 
watch.
    I will try to come up with some numbers for you or some 
anecdotes or cases where this has occurred and you will see 
where we see the trend going.
    Mrs. Mink. Now, on the last page you have the data on 
marijuana. And it is the table which shows the amount of plants 
that were seized, outdoor plants, 627,000, indoor plants, 
1,489. Total plants seized/eradicated 629,000.
    What would be the percentage--what would that constitute as 
a percentage of the total amount of marijuana plants in 
existence in cultivation in Hawaii today?
    Ms. Leonhart. Again, what I would have to do is go and find 
out what the estimates are. I know that we have probably the 
most successful of the domestic canvas eradication programs 
running in Honolulu. I would have to go to that program and 
find out for you the estimates on what is grown that we don't 
eradicate.
    Mrs. Mink. Now, of the marijuana that you interdict leaving 
Hawaii in all the different channels that are available, what 
is the total amount that is actually found or interdicted 
leaving Hawaii in all the different ways that it could possibly 
leave, postage express, air travel, whatever.
    Do you have any figures there?
    Ms. Leonhart. I don't have figures with me. I would be glad 
to look to see if those numbers are kept and provide you with 
that. I can tell you, because I handle Los Angeles, that we are 
still seeing bulk shipments of marijuana coming from Honolulu 
to the mainland. However, there are active growing sites in 
California. We're still seeing importation of Mexican marijuana 
into southern California as well as Canadian marijuana. So it 
would not be a large percentage but there still is marijuana 
that is being transported to the mainland.
    Mrs. Mink. Mr. Aycox, in your testimony on the last page 
you said you were hoping the members could clarify your 
authority to inspect outbound mail parcels.
    Could you elaborate on that.
    Mr. Aycox. Yes. There is a continuing long-term difference 
in the interpretation of the existing statute as to whether or 
not Customs has the authority to examine outbound mail. We 
believe, and our counsel advises us, that the existing statute 
gives us that authority. The counsel and the managers of the 
U.S. Postal Service have a different interpretation.
    Mrs. Mink. So does that mean you do not inspect outbound 
parcels?
    Mr. Aycox. That's correct, on a regular basis we do not. 
The only time we would do so would be on a special task force, 
where we would work with the Postal Service and they would get 
a warrant on each and every package to be examined.
    Mrs. Mink. So does that need to be clarified by a statute, 
an enactment by Congress or this is just internal 
interpretations and we would need to bear down on the Postal 
Service?
    Mr. Aycox. I believe it needs to be clarified to make it 
very clear that we have the authority----
    Mrs. Mink. By statute.
    Mr. Aycox. Well, I do want to say that we have a very good 
working relationship with the Postal Service across the Nation.
    Mrs. Mink. This interpretation applies nationwide, not just 
to the activity here in Hawaii?
    Mr. Aycox. Correct, it's nationwide.
    Mrs. Mink. Now, with respect to inbound parcels, you have 
authority and capacity to inspect all inbound?
    Mr. Aycox. Yes, we do.
    Mrs. Mink. Both the express mail and UPS as well as the 
postal.
    Mr. Aycox. We have that authority. However, here in Hawaii 
there is no express consignment hub; most of that examination 
is done in Memphis or in Cincinnati or one of the other hubs 
where Fed Ex or UPS, or in Miami.
    Mrs. Mink. So when it lands here you make no inspection?
    Mr. Aycox. Typically, no, because it comes in as a domestic 
shipment.
    Mrs. Mink. So what percentage do you think comes in here 
with no inspection at all.
    Mr. Aycox. From the other----
    Mrs. Mink. For the western sites since there is no 
inspection.
    Mr. Aycox. Well, there are Customs officers at each one of 
those locations and they target the shipments and inspect them 
if necessary for examination.
    Mrs. Mink. Isn't that inconsistent when you say you don't 
have outbound authority?
    Mr. Aycox. No, I don't understand.
    Mrs. Mink. This is outbound coming to Hawaii and you're 
saying your officials have the task to inspect outgoing parcels 
before they get here.
    Mr. Aycox. I misspoke. What I meant to say was that these 
are international shipments that arrive in the United States at 
one of the other hubs in those cities, such as: Memphis, Miami, 
Cincinnati--which are some of the other locations. So they are 
inbound international shipments which are inspected by Customs 
at that time and then they are shipped here as part of a later 
continuing journey as domestic cargo.
    Mrs. Mink. How about domestic trans-shipments then from 
West Coast or other points not international cargo?
    Mr. Aycox. We don't have any authority to examine domestic 
cargo.
    Mrs. Mink. You have no authority to investigate incoming 
and outgoing, both ways.
    Mr. Aycox. Domestic cargo, correct.
    Mrs. Mink. So the seizures that are made by Customs 
extensively relate to what types of situations if it's not the 
express or the Postal Service?
    Mr. Aycox. Our seizures throughout the Nation and 
specifically here in Hawaii are related to inbound 
international people, vessels, aircraft, cargo, merchandise--
whatever it may be--that's entering that particular location 
for the first time. And we also examine outbound cargo people, 
vessels that are going direct outbound from the site as well.
    Mrs. Mink. That is travelers as well as parcels?
    Mr. Aycox. Yes.
    Mrs. Mink. That are leaving the State you have authority to 
inspect?
    Mr. Aycox. Correct, if they are going internationally.
    Mrs. Mink. But not domestic.
    Mr. Aycox. Not domestic.
    Mrs. Mink. Dr. Sakai, on your treatment programs, 
apparently the facility that we visited yesterday with the 200 
beds is basically the totality of your extensive long-term 
treatment program for the inmates in your prison system.
    Mr. Sakai. Pretty much so.
    Mrs. Mink. And this 200 bed facility is only recent, about 
a year?
    Mr. Sakai. The program actually started with Federal funds 
about 10 years ago, but was very small until about a year ago 
when we were able to expand it to 200.
    Mrs. Mink. Was that because of Federal funds or because the 
State gave you more money?
    Mr. Sakai. The State did give us more money in response to 
the overcrowding problem. The Governor and the legislature 
supported our proposal to expand the Waiawa facility by 200 
beds.
    Mrs. Mink. Are there any Federal funds in there now?
    Mr. Sakai. No. However, we use Federal funds to support our 
Bridge program which is a transitional program for Kash Box 
graduates.
    Mrs. Mink. Now, is the Bridge program which is transitional 
after they leave prison, after going through Kash Box, is that 
adequate to service all of your inmates that have been released 
from prison after having gone through Kash Box? Because we 
heard differently yesterday, that it was inadequate.
    Mr. Sakai. It certainly is not adequate. We don't have 
enough slots, only 30 slots there.
    Mrs. Mink. Who pays for Bridge, is that State or is that 
Federal?
    Mr. Sakai. That's federally funded right now. And Bridge is 
actually located within our jurisdiction. It's a work release 
program.
    Mrs. Mink. They have not really been discharged from the 
system.
    Mr. Sakai. That's correct. The real need--I believe we 
could use at least twice as many beds as we have now.
    Mrs. Mink. So you're saying that you could use 400 instead 
of the 200 you now have?
    Mr. Sakai. No. I was speaking of Project Bridge.
    Mrs. Mink. What would be the maximum size of your Kash Box 
facility if you had the funds to expand it, what would you 
consider to be a reasonable size program?
    Mr. Sakai. I would, rather than expanding Kash Box I would 
like to see if we can replicate similar programs in our Halawa 
prison or the new prison we are proposing to build.
    Mrs. Mink. At Halawa why can't you replicate it there at 
Halawa? They're already there; they're already incarcerated, 
you don't have all the costs for residential expenses as you 
would normally if the person is outside. A treatment program 
outside is very expensive because the individual has to be kept 
as a residential patient for a considerable length of time, 6 
months and plus. But in the prison situation they are there so 
you have no costs attributable to the residents and all the 
other facilities. So why can't you just sort of take a part of 
Halawa and dedicate it to drug treatment?
    Mr. Sakai. There are two reasons. First of all, we don't 
have the staffing to run the program for the treatment 
component. And second, because of overcrowding, it's difficult 
for us to dedicate any portion of Halawa. Halawa was designed 
to hold 586 inmates and we are currently holding about 1,200 
inmates. So it's very difficult for us to carve out (inaudible) 
and dedicate it to----
    Mrs. Mink. But then you answered my question. Instead of 
increasing Kash Box from 200 to 400, you said you would rather 
have a similar facility in Halawa. So what specifically were 
you talking about doing in Halawa?
    Mr. Sakai. The reason I mention that is because Kash Box is 
for inmates who qualify for minimum security. And many inmates 
who need treatment are not in that level of security 
classification, and we would be reluctant to put them in Halawa 
because they pose a risk, not only to the management of the 
facility, but also to the community.
    Mrs. Mink. So are you saying that there are none who would 
qualify for Kash Box beyond the 200 you now have because of the 
security aspects of it?
    Mr. Sakai. No, I'm not saying that. What I'm saying is that 
the greater need would be for high-level security inmates, that 
also need treatment.
    The other factor for us, Congresswoman Mink, is that we 
have 1,200 inmates on the mainland including about 1,100 men. 
And unfortunately, some of our best candidates for treatment 
have been shipped off to the mainland because of certain 
qualifications for inmates to be shipped off to prisons out of 
State, which was established in our contracts. Unfortunately 
some of our best inmates, our prime candidates, are there.
    Mrs. Mink. I don't understand. What do you mean your prime 
candidates have been shipped off?
    Mr. Sakai. Inmates who are most amenable to treatment.
    Mrs. Mink. Are they getting treatment in their mainland 
facilities?
    Mr. Sakai. There is some treatment going on, but it's very 
limited and because we don't constitute the entire population. 
(Inaudible) need for treatment slots for inmates from other 
States.
    This is why we are proposing to build a new facility in 
Hawaii to bring all of these people home. We would like to make 
the treatment intensive and to dedicate substantial portions of 
our new facility to that treatment.
    Mrs. Mink. Why do you feel you have to ship out of Hawaii 
your best candidates if you are sending them to a facility that 
has no treatment program?
    Mr. Sakai. Because the contracts that we have allow the 
contractors to select the particular inmates that they're going 
to have. So we allow them to take a look at the inmates who are 
candidates for transfer, and many of the inmates who remain 
back in Hawaii present particular kinds of problems--security 
problems, health problems or mental health problems--which 
makes them difficult to handle.
    The first consideration we had when we set up these 
contracts and selected the facilities, was to relieve 
overcrowding.
    As I indicated, Halawa is still more than double it's 
design capacity, and it's sort of the first relief that we need 
to bring upon our system is simple total relief from 
overcrowding.
    Mrs. Mink. Now, with reference to Kash Box and the inmates 
that have gone through it and have been released and are 
outside the prison system, the chairman asked you some 
questions about recidivism. It's a very important element for 
our consideration in terms of the validity of investment and 
treatment programs. You want to see some evidence that it is 
working. And I realize that the transition is not really fully 
in place, but given your experience in the last say 5 years 
with Kash Box, what is the recidivism of these individuals that 
have gone through Kash Box? How many of them have had to come 
back in?
    Mr. Sakai. I believe the number is somewhere between 30 to 
40 percent.
    Mrs. Mink. Have returned.
    Mr. Sakai. That's correct. But we are dealing with people 
that have serious drug problems. And my understanding is that 
without treatment the return rate is somewhere in the vicinity 
of around 70 percent. So we believe there is a substantial 
effect.
    Mrs. Mink. Have you had the opportunity to examine what 
you're doing with Kash Box as compared to what other prison 
institutions in other States are doing? And how does it compare 
in terms of recidivism?
    Mr. Sakai. We never really formally studied or had a formal 
evaluation of Kash Box. I think it's very important that we do 
so. The numbers that I have used is based simply on our 
tracking of inmates that have gone through the Kash Box 
program. I think it is important for us to take a look at 
what's being done in other States. We are in contact with other 
jurisdictions, and I believe the prevailing research would 
indicate that treatment is effective as long as there is 
continuing care in the community.
    Mrs. Mink. The inmates we spoke to yesterday pointed out, 
that they felt that while they were sure they had benefited 
from the program while they were there, there is still an 
element of uncertainty as to what they will face when they get 
out; can they get a job and all of those things. So the 
transition issue, I think, is very, very vital.
    Incidentally, Mr. Chairman, before I conclude my 
questioning, I have to tell the Public Safety Director that 
they made one request of me yesterday as I went to meet the 
inmates who were out there in the lawn. They want a basketball 
court.
    So I have transmitted their request to you.
    Thank you, Mr. Chairman.
    Mr. Mica. I want to thank each of our witnesses this 
morning for their contribution.
    As I have said before we will leave the record open. We 
have asked some questions which we would like your response, 
and we may be submitting additional questions.
    Mrs. Mink. One more request. I received in the mail a very 
fine report from the National Guard on their drug program. I 
would like to ask unanimous consent that that report be placed 
in the record together with his testimony.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T8506.085
    
    [GRAPHIC] [TIFF OMITTED] T8506.086
    
    [GRAPHIC] [TIFF OMITTED] T8506.087
    
    [GRAPHIC] [TIFF OMITTED] T8506.088
    
    [GRAPHIC] [TIFF OMITTED] T8506.089
    
    [GRAPHIC] [TIFF OMITTED] T8506.090
    
    [GRAPHIC] [TIFF OMITTED] T8506.091
    
    [GRAPHIC] [TIFF OMITTED] T8506.092
    
    [GRAPHIC] [TIFF OMITTED] T8506.093
    
    [GRAPHIC] [TIFF OMITTED] T8506.094
    
    [GRAPHIC] [TIFF OMITTED] T8506.095
    
    [GRAPHIC] [TIFF OMITTED] T8506.096
    
    [GRAPHIC] [TIFF OMITTED] T8506.097
    
    [GRAPHIC] [TIFF OMITTED] T8506.098
    
    [GRAPHIC] [TIFF OMITTED] T8506.099
    
    [GRAPHIC] [TIFF OMITTED] T8506.100
    
    [GRAPHIC] [TIFF OMITTED] T8506.101
    
    [GRAPHIC] [TIFF OMITTED] T8506.102
    
    [GRAPHIC] [TIFF OMITTED] T8506.103
    
    [GRAPHIC] [TIFF OMITTED] T8506.104
    
    [GRAPHIC] [TIFF OMITTED] T8506.105
    
    [GRAPHIC] [TIFF OMITTED] T8506.106
    
    [GRAPHIC] [TIFF OMITTED] T8506.107
    
    [GRAPHIC] [TIFF OMITTED] T8506.108
    
    [GRAPHIC] [TIFF OMITTED] T8506.109
    
    [GRAPHIC] [TIFF OMITTED] T8506.110
    
    [GRAPHIC] [TIFF OMITTED] T8506.111
    
    [GRAPHIC] [TIFF OMITTED] T8506.112
    
    [GRAPHIC] [TIFF OMITTED] T8506.113
    
    [GRAPHIC] [TIFF OMITTED] T8506.114
    
    Mr. Mica. Without objection, so ordered.
    Again, I thank each of the witnesses for their testimony 
today. At this time I will excuse this panel and call our third 
panel.
    Our third panel today consists of two individuals. One is 
Sara Cunningham, Hawaii State Student Council. The other one 
Chris Taketa; is that correct?
    Mr. Taketa. Taketa.
    Mr. Mica. And he is also with the Hawaii State Student 
Council.
    And as I have informed the other panelists, this is an 
investigation. It's an oversight panel of Congress and I'm 
going to swear you in, if you would please stand.
    [Witnesses sworn.]
    Mr. Mica. I would like to welcome each of you.
    Mr. Mica. We will recognize first Sara Cunningham, again, 
from the Hawaii State Student Council.

   STATEMENT OF SARA CUNNINGHAM, HAWAII STATE STUDENT COUNCIL

    Ms. Cunningham. Good morning, Chairperson Mica and 
Representative Mink. I'm Sara Cunningham and I'm a sophomore at 
Hilo High School located on the Big Island. And I'm a 
representative to the Hawaii State Student Council.
    There is a question that parents always use to describe 
peer pressure: ``If your friends were to jump off a bridge, 
would you jump too?'' Peer pressure is no longer that simple. 
Instead, parents should be asking their children: ``If your 
friends were trying to push you off a bridge, would you try to 
stop them?''.
    Peer pressure is no longer just a force upon your 
decisions. It has become a way of thinking and acting. Weekend 
partying, for example, has become a way of life for many 
teenagers in my home town of Hilo. At these parties, one will 
always find alcohol and cigarettes, and on occasion illegal 
drugs like marijuana. The actual parties themselves are not as 
detrimental as the effects of them. When the new school week 
begins, I often hear stories of those who have gotten drunk 
over the weekend. People brag about how much alcohol they have 
consumed and act as though they have just won a competition for 
having been the most drunk.
    Those students who have yet to experiment with alcohol or 
drugs are tempted by the stories told by those who have already 
tried drugs and reported their findings in a lighthearted 
manner. The problem lies in the lighthearted manner in which 
the stories are told. Who would ever believe the detriments of 
weekend partying told in a joking manner? The answer is: hardly 
anyone.
    In elementary school, we are taught to ``just so say no to 
drugs.'' And there it is rare for students to ever have to use 
that line because drugs seldom exist at that point in our 
lives. In intermediate school, we have the same phrase running 
through our heads as we see the first use of drugs by our 
classmates. I remember walking home behind students who were 
smoking cigarettes and trying to get away from them so I didn't 
have to smell that smoke. Yet in high school the elementary 
drug education is truly tested. Although when you were in 
elementary school, saying no to your friends in role playing 
was so easy, denying your friends when they now stick a beer in 
your hand and they say, ``That's yours'' is not. Somehow all 
the information that you gained as a child is no longer 
applicable to your life. And because it makes little sense to 
you now, what is the harm in letting yourself try, just once.
    Drug prevention programs, such as DARE, are excellent tools 
for elementary school students to learn about drugs and alcohol 
and why to stay away from them. However, there is little or no 
maintenance of students' drug education as they become older. 
The one time teach-them-and-they-will- remember-forever program 
is no longer working. As drugs become more readily available, 
the idea that drugs are bad for you is not reinforced.
    We understand that there are a shortage of funds for drug 
prevention and limited ways in which the money can be spent. 
However, we propose that money should be diverted from 
elementary programs to intermediate and high schools so that 
drug education is spread over more years, rather than compacted 
into a few months.
    Survey numbers support the idea of increasing high school 
drug prevention programs. There have been numerous surveys 
conducted. The following survey cited is the 1999 Hawaii State 
Student Council and State Student Conference Legislative 
Committee survey, taken at the student leadership workshop, 
August 4, 1999. The students surveyed were student leaders from 
elementary through high school, so they are answering based on 
what they see on their campus. The survey revealed that 112 of 
166 students reported that they knew of an illegal drug problem 
on campus. 147 of 166 students surveyed stated that there is a 
smoking problem at their school.
    When asked if there were any preventative measures being 
taken at their school, 117 of 166 students responded that there 
are programs in their school. However, of those 117, 86 replied 
that those preventative measures do not work.
    I have just learned that the Department of Health in 
correspondence with the Department of Education has 29 
treatment programs set up in different schools which does not 
cover the entire State, but at least there are a few programs.
    In other surveys taken by students from across the State, 
the Millennium Young People's Congress Survey revealed that 
drug education is a top priority for the new millennium. 
According to the national survey administered by the 
Educational Testing Service [ETS], in 1998, one of every five 
Hawaii eighth graders reported that their school had a drug 
problem.
    It may seem as though there is a drug epidemic in Hawaii. 
But I do not see it that way. There are problems, there is no 
denying that. But these problems hardly exist in a physical 
state, but more often a psychological one. The jokes about 
using drugs and alcohol are the main culprits in this epidemic. 
Just as mathematics is being taught and built upon in 
elementary through high school, drug prevention also needs to 
be reinforced, maintained, and/or retaught throughout a 
student's career.
    The question of the bridge is raised again except this time 
I ask you: Can you teach me not to jump off a bridge? Can you 
teach me to avoid drugs and alcohol so in turn I will try to 
convince my friends not to throw me off that bridge?'' But most 
importantly, can you teach us all not to be tempted to go near 
the bridge?
    And I'd like to thank the people who have helped me prepare 
my testimony. I've had very little experience with drugs and 
alcohol--none--except for religious education regarding reasons 
for alcohol. And so I had the help of my principal, students 
from across the State, my State student council and students 
from my own school who helped me to put together this testimony 
so that I had a full view of what was happening with students 
from across the State.
    Thank you for your time and consideration.
    [The prepared statement of Ms. Cunningham follows:]

    [GRAPHIC] [TIFF OMITTED] T8506.115
    
    [GRAPHIC] [TIFF OMITTED] T8506.116
    
    Mr. Mica. The next witness is Chris--is that Taketa? I have 
messed it up twice now.
    Mr. Taketa. Taketa.
    Mr. Mica. Taketa, very good. And he is with the Hawaii 
State Student Council also.
    Welcome and you are recognized.

    STATEMENT OF CHRIS TAKETA, HAWAII STATE STUDENT COUNCIL

    Mr. Taketa. Thank you, Chairman Mica and Representative 
Mink. My name is Christopher Taketa. I'm a senior at Castle 
High School and I'm testifying on behalf of Loni Takeoka who is 
a senior at Konawaena High School on the Big Island.
    Today, high school is hardly what it was 10 years ago. 
Every day students come face to face with obstacles such as 
violence, drugs, and endless amounts of peer pressure. Although 
people don't realize it, drug abuse is a huge problem in high 
schools all over Hawaii. I speak from personal experience, 
after 4 years of attending high school, I have seen students 
smoking in restrooms, student parking lots, campus hallways and 
the list goes on. The problem is so common that most students 
don't find drug abuse much of a big deal. Even drug dealing is 
a very common sight on campus. And it doesn't stop there. 
Students are grossly exposed to drugs outside of school through 
parties or other social activities.
    Drugs and drug use are everywhere and students like myself 
are being exposed to it every day. I have attended numerous 
conferences and student workshops where time and again my 
attention was called to the drug problem that exists in 
Hawaii's schools. Surveys taken show that most students are 
aware of a drug problem in their school and know people who are 
using drugs, such as friends or siblings.
    The prevention programs I had in elementary such as DARE 
were great. They gave us free stickers and they told us things 
like ``If you smoke you will croak'' which really scared me and 
taught us not to do those things. And they also taught us to 
deal with peer pressure. But what about high school? Drug abuse 
is where it happens in high school. And for those who don't 
know, the class of 2000 is no longer smoke free. You may think 
the students who are smoking and dealing with drugs are mostly 
juniors and seniors. But the kids who don't seem to be the 
least bit worried about these problems are the freshman and 
sophomores. They see what others are doing and they don't see 
anything wrong with it.
    I strongly believe that drug programs for the Hawaii high 
schools should be implemented if they are ever going to take 
steps to solve our problem. If there were drug programs for 
high school students, they don't exist for every school and are 
not effective. I understand that funding for the programs such 
as DARE are scarce, and perhaps we need to reevaluate our 
existing programs and find out why they aren't effective and 
fix the problem. Students spend most of the time during the day 
at school, so why not concentrate solving the problems in 
school for the students on campus. Therefore, those who can't 
get help outside of school and don't want to tell their parents 
can find help after school. Kids like freshmen and sophomores 
who can't drive to abuse centers can get help right on campus 
and become educated.
    Most of the information I have given you is from personal 
experience. And I have had friends who have used and abused 
drugs and paid dearly for it. And the number of students I see 
suffering from drugs seems to increase year after year. I truly 
hope you have taken this into consideration and to heart, and 
maybe 1 day we will stand proud and say we are drug free.
    [The prepared statement of Mr. Takeoka follows:]

    [GRAPHIC] [TIFF OMITTED] T8506.117
    
    [GRAPHIC] [TIFF OMITTED] T8506.118
    
    Mr. Mica. Thank you both for your testimony. What level are 
you both in school, seniors or juniors?
    Ms. Cunningham. I'm a sophomore.
    Mr. Taketa. I'm a senior.
    Mr. Mica. Both in public school?
    Mr. Taketa. Yes.
    Mr. Mica. Are drugs readily available in the school you 
attend?
    Ms. Cunningham. If I wanted to get drugs, I could very 
easily.
    Mr. Mica. What kind of drugs?
    Ms. Cunningham. Marijuana, (inaudible) because it's grown 
heavily in many areas where students that attend my school come 
from.
    I don't know too much about the other drugs. I could 
possibly get cocaine.
    Mr. Mica. What about meth?
    Ms. Cunningham. I don't know too much about meth. Meth is 
not talked about too heavily at our school, because our 
administration cracks down heavily on it. But marijuana and 
cocaine.
    Mr. Mica. What about your school?
    Mr. Taketa. Mostly marijuana and alcohol.
    Mr. Mica. You said you knew students had who had been 
victims of illegal narcotics?
    Mr. Taketa. I'm sorry, that was on Loni's behalf.
    Mr. Mica. You're reading his testimony?
    Mr. Taketa. Yes. But most of what----
    Mr. Mica. What about you?
    Mr. Taketa. No, I haven't.
    Mr. Mica. Have either of you seen the national ad campaign 
or narcotics ads on television.
    Ms. Cunningham. Yes.
    Mr. Taketa. Yes.
    Mr. Mica. What's your opinion?
    Mr. Taketa. I think they are really effective. I don't do 
any of that either, so it works.
    Mr. Mica. What about you?
    Ms. Cunningham. I have seen some ads, but I don't know 
exactly which ones you are talking about because there are many 
different ads out there, dealing with peer pressure.
    Mr. Mica. But you have seen ads?
    Ms. Cunningham. I have seen ads.
    Mr. Mica. What's your evaluation of their effectiveness?
    Ms. Cunningham. I think they are effective for some 
students, but for others, watching a TV ad and having it tell 
you ``Don't do drugs'' is rather trivial; they think its a big 
joke. That's how it's taken, as a big joke.
    But for many students the ads are very effective because 
they see it along with programs that they enjoy watching. But 
others who need the person physically standing in front of them 
telling them that they need to stay away from drugs in a 
classroom.
    Mr. Mica. And the only drug prevention program that either 
of you participated in in school was the DARE program?
    Ms. Cunningham. I actually participated in the AGE program 
which is an anti-gang program, but they also discussed drugs 
because of the relation between the two.
    Mr. Mica. Is that required or voluntary?
    Ms. Cunningham. In eighth grade it was required for health 
class, but your parents could sign you off if they did not wish 
you to participate in certain segments.
    Mr. Mica. Nothing since then?
    Ms. Cunningham. Nothing since then.
    Mr. Mica. How about you? Nothing since DARE?
    Mr. Taketa. Nothing.
    Mr. Mica. Did you have DARE?
    Mr. Taketa. Yes, I had DARE.
    Mr. Mica. Thank you. Mrs. Mink.
    Mrs. Mink. Thank you very much. You're both members of the 
student council representing your schools in a State 
environment?
    Ms. Cunningham. We are representing our districts.
    Mrs. Mink. Your district in a State council?
    Ms. Cunningham. Yes.
    Mrs. Mink. How often does that council meet?
    Ms. Cunningham. Once a month.
    Mrs. Mink. And you have special interest in this drug area?
    Ms. Cunningham. Yes, we do. We work very closely with the 
State Student Conference which is where Loni Takeoka is from. 
And in that conference there was a resolution that was brought 
up about drug prevention and treatment programs. And with our 
survey results, it has been a major concern students feel we 
need to address; because that's what we do.
    Mrs. Mink. So when you adopted this resolution it was 
specifically to ask the legislature to provide more moneys for 
student programs that would carry on the message that you all 
received in fifth grade. Is that the essence of your 
resolution?
    Ms. Cunningham. There were two resolutions. One was--
basically the combination of both--prevention and treatment. 
Prevention as a continuation of our fifth grade education 
becoming more sophisticated as we get older. And a treatment 
program for all schools and students at different levels. 
Because we see that although there are treatment programs in 29 
of the schools, which is not all the schools of Hawaii, there 
are more than that.
    Mrs. Mink. Recently you testified before the legislature?
    Ms. Cunningham. Yes, I have.
    Mrs. Mink. On that particular--how was it received.
    Ms. Cunningham. We had not testified in front of that 
legislature for that particular resolution because it did not 
pass.
    Mrs. Mink. It did not pass?
    Ms. Cunningham. Did it?
    Mrs. Mink. The student council did not pass the resolution 
on drugs?
    Ms. Cunningham. No, no. We do not have any control over 
what is passed at the State Student Conference. And I think it 
was brought up; it did pass the State Student Conference which 
means that the State Student Conference planners can continue 
to pursue it with the State legislature. And they did. 
Unfortunately I do not believe that--I know it was heard once 
in house education, but unfortunately it was tied up in house 
finance because of money reasons that we do not have----
    Mrs. Mink. Is that this year or last year?
    Ms. Cunningham. This year.
    And so we do not have enough funding to pursue it, although 
they did tell us that it was a wonderful idea. We need to find 
another way to get the funding for it.
    Mrs. Mink. Thank you very much, Mr. Chairman.
    Mr. Mica. I want to thank both of our panelists in our last 
panel for coming forward and providing us with testimony today.
    I would like to thank all of those who participated in the 
hearing today from various State, local, Federal agencies for 
providing their testimony. Hopefully it will help us as we go 
back and try to do a better job in trying to direct our 
resources and Federal attention to this problem facing not only 
Hawaii but the entire Nation.
    I'm particularly grateful to Mrs. Mink, not only for her 
asking and helping to coordinate this hearing and her 
persistence in trying to bring resources not only to Hawaii but 
the whole country effective drug treatment and prevention and 
education enforcement programs.
    But also thank her for her leadership on our subcommittee. 
We are a very active subcommittee of Congress with a number of 
areas of jurisdiction including national drug policy, oversight 
of the Department of Justice, Department of HHS, HUD, 
international trade issues and also the Department of 
Education, certainly a broad area to conduct oversight and 
investigations. And without her leadership that would be 
impossible to be effective in that charge.
    So I thank her, again, for her work with me. We do that in 
a very bipartisan manner in the House of Representatives and I 
in the interest of all the people of the country.
    Again, thank you, Mrs. Mink. Thank you for again the warm 
hospitality. Next time I hope when I come to Hawaii I don't 
have to go to prison, to jail, the police and station and to 
Weed and Seed programs so I can enjoy myself with my wife and 
family. I have been here a number of times before. But this has 
been a very productive 48 hour visit for me. And I thank you 
for accommodating me.
    Mrs. Mink. I thank you very much, Mr. Chairman for your 
agreement to come. I know that it really interrupted your 
regular schedule to make this long trip out here and for such a 
short time. Less than 48 hours.
    Mr. Mica. That's right.
    Mrs. Mink. Like a 39 hour trip. I really appreciate it and 
the time that you took to do the two field investigations 
yesterday in particular.
    I hope that the record that we have made today will help 
our colleagues understand the enormity of the problem that we 
have here. And I hope I can get hundreds of copies of the 
hearings record, and together with our students and others, 
prevail upon the State to do a much more aggressive job in the 
area of prevention and treatment, which clearly is the area 
that we have to spend our time and money in.
    Thank you very much, Mr. Chairman.
    Mr. Mica. Thank you.
    And having completed the other half of my 20 hours of 
travel, I may submit your name along with others who represent 
this area for congressional medals just for the endurance of 
traveling back and forth to our Nation's capitol. I honestly 
don't know how you do it, but I admire you and look forward to 
seeing you on the floor tomorrow morning after we both arrive.
    There being no further business to come before the 
subcommittee this meeting is adjourned.
    [Whereupon, at 12:10 p.m., the subcommittee was adjourned.]


</pre></body></html>
